<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2004</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              


                        THURSDAY, APRIL 10, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 1:29 p.m., in room SD-116, Dirksen 
Senate Office Building, Hon. Ben Nighthorse Campbell (chairman) 
presiding.
    Present: Senators Campbell, Bennett, Stevens, and Durbin.

                          LIBRARY OF CONGRESS

STATEMENT OF DR. JAMES H. BILLINGTON, LIBRARIAN OF 
            CONGRESS AND CHAIRMAN OF THE BOARD OF 
            TRUSTEES FOR THE CENTER FOR RUSSIAN 
            LEADERSHIP DEVELOPMENT
ACCOMPANIED BY:
        GENERAL DONALD L. SCOTT, DEPUTY LIBRARIAN
        KENNETH E. LOPEZ, DIRECTOR OF SECURITY

          OPENING STATEMENT OF SENATOR BEN NIGHTHORSE CAMPBELL

    Senator Campbell. The subcommittee will come to order.
    Senator Durbin is running a little late. He will be along 
in 10 or 15 minutes. But we will go ahead and start.
    We meet today to hear from Dr. James Billington, the 
Librarian of Congress, on the fiscal year 2004 request for the 
Library of Congress. Dr. Billington is accompanied by Deputy 
Librarian General Donald Scott and a team of others.
    I met both of you in my office. I appreciated that 
opportunity to talk to you.
    The Library's request of $540 million represents an 
increase of $44 million over the current year and 124 
additional staff. As I understand it, the budget request can be 
reduced by the amount of the funds provided in the pending 
fiscal year 2003 supplemental, a total of $7.4 million. Major 
increases are requested for additional security measures, 
particularly new police officers, funds for the ongoing 
establishment of an audiovisual conservation center in 
Culpeper, Virginia, as well as routine increases in payroll and 
that needed for inflation.
    Other areas of emphasis in your budget, Dr. Billington, is 
the alternate computing facility, which is to be operational 
this summer, continuing to reduce the backlog of uncataloged 
items in the Library and increasing the budget for the Veterans 
History Project, to name a few.
    And with that, we will go ahead and start. If you would 
like to submit your complete testimony for the record, that 
will be included. And if you would like to diverge from that, 
that will be fine, too.
    Excuse me. Before we start, I did not realize that Senator 
Stevens had come in.
    Senator Stevens. They were exposed to me yesterday at the 
Rules Committee, Mr. Chairman. So I am here to listen again.
    Senator Campbell. Okay. You have no statement, then, 
Senator?
    Senator Stevens. No, thank you.
    Senator Campbell. Okay. Why do we not go ahead and start?

                 EMERGENCY SUPPLEMENTAL APPROPRIATIONS

    Dr. Billington. Thank you, Mr. Chairman. And thank you, 
also, for the committee's support of the supplemental 
appropriations request. If it is approved, the Library's next 
budget would be decreased to $29.9 million, rather than $44 
million, which would be only a 5.5 percent increase. Most of 
that 5.5 percent, 79 percent, would be for mandatory pay and 
price level increases.

                          UPCOMING CHALLENGES

    The Library is, in effect, in the process of superimposing 
a massive digital electronic library on what is already the 
world's largest traditional library of artifacts. For fiscal 
year 2004, we will face special challenges in implementing new 
security measures, a police force merger, and planning to 
replace the 42 percent of our current staff who will become 
eligible to retire in the next 5 years; also requiring and 
preparing this long-awaited, much-needed national audiovisual 
conservation center, most of which is coming to us through a 
very generous donation from the Packard Humanities Institute; 
and finally, acquiring, preserving, and ensuring rights-
protected access to this explosion of materials that are 
produced in digital format, as well as the continuing pile-up 
of analog items, of which we add 10,000 a day.
    The events of September 11, the constant threat of 
terrorism, war in Iraq, have greatly increased the importance 
of the Library's mission to gather and make accessible the 
world's knowledge for the Nation's good. We serve in many ways 
as the Nation's strategic information reserve. And we provide 
Congress with authentic information, principally through CRS, 
the Congressional Research Service, and the Law Library. Last 
year, CRS experts delivered over 800,000 responses to a wide 
variety of Congressional inquiries.
    The unique global resources also play a special role. One 
of our Middle Eastern experts discovered and translated not so 
long ago a rare 1991 autobiography written by Osama bin Laden, 
which named some of his cohorts. The report was made available 
to the Congress and the Government agencies and is now 
available for research in our African and Middle Eastern 
reading room.
    Another example, our Law Library, which has the largest 
collection of Afghanistan laws in the world, helped reassemble 
that country's laws, most of which were destroyed by the 
Taliban. The Law Library found a unique two-volume set of the 
laws that was unavailable elsewhere, reconstructed it. It has 
been distributed to 1,000 institutions in Afghanistan.
    The final example of this kind is our Federal Research 
Division, which did a study on terrorism in 1999. It was 
commissioned by the National Intelligence Council. And 2 years 
before 9/11, the study noted that members of al Qaeda could 
conceivably crash an aircraft into the Pentagon, CIA 
Headquarters, or The White House. That report is now available 
on our website.
    Our new national plan for digital preservation was approved 
by the Congress last December. And it establishes an approach 
for the capture and preservation of important websites, 
including those that are dealing with issues of urgent 
importance to the Congress. The average life span of a website 
today, Mr. Chairman, is 44 days. So we are taking the lead on 
acquiring and preserving this digital material and will be 
asking eventually to adapt the mandatory deposit requirement of 
the Copyright Act to the digital environment so we can more 
efficiently deposit online materials.

                 LIBRARY OF CONGRESS FUNDING PRIORITIES

    Most of our requested increase, as I have said, is for 
mandatory pay and price increases. The Library does not seek 
support for any new functions. What we are simply doing is 
getting the adequate support for the resources needed to 
perform the historic service in a radically changed and 
increasingly changing environment. That involves improving 
physical security, support collections security and management, 
including the new center at Culpeper. It involves managing our 
growing collections and incorporating the rapidly changing 
technology into all our operations right across the board, 
supporting the Copyright Office's reengineering efforts, for 
instance, and enhancing access by the Congress to CRS products 
wherever and whenever the Congress needs, increased CRS 
research capacity to manipulate the large data sets upon which 
CRS analysts rely, and incentives to enhance staff retention.
    We are requesting funding that will support 4,365 full-time 
equivalent positions, which is an increase of 124 FTEs. That 
number is still 184 fewer FTEs than we had in 1992 before the 
explosion of the Internet, before the great growth of 
collections and security measures that have been required in 
recent years.
    So, Mr. Chairman and Senator Stevens, to whom we continue 
to be indebted in many ways in this institution, we thank you, 
especially for your support in recent years, but also for the 
Congress over 203 years. The Congress of the United States has 
been the greatest single patron of the Library in the history 
of the world. And it has created and sustained the largest 
repository of human knowledge. So we are deeply grateful for 
your confidence and support.
    I would just point out a couple of items. This is the 
strategic plan that was sent to you separately. I testified 
this morning before Senator Lamar Alexander's committee on the 
use of the Library's collections by teachers and students in K 
through 12. There is a brochure here that may be of interest to 
you, which describes all of our online facilities and how they 
are being used educationally.
    You also have a sample of different parts of the website. 
We also did a listing recently of services that we perform for 
the Congress, in addition to the ones you are familiar with in 
CRS, as well as potential ones that we could activate very 
rapidly should the Congress want them. So you may have already 
received copies of this, but we will pass these over.

                              NEW WEBSITE

    And finally, sir, we wanted to give you the first news of a 
new website that just went up today. It is celebrating the 
100th anniversary of Harley-Davidson.
    Dr. Billington. Hog Heaven----
    Senator Campbell. The Wright Brothers did a little 
something, too, in 1903, as you remember.
    Dr. Billington. This celebrates 100 years, including 
images, posters, all of America's most recognized motorcycle. 
And I brought three special examples from the new web 
presentation, which we thought you might like to have in larger 
scale.
    The first is a photograph from our prints and photographs 
collection of somebody with one of the early motorcycles in 
1910. This one is the 1915 Harley-Davidson advertisement in 
Motorcycle Illustrated. You could buy a motorcycle for $275 
back in those days.
    Senator Campbell. I got my oil changed the other day, and 
it cost that much.
    ``HD'' stands for hundreds of dollars, by the way.
    Dr. Billington. Finally, from the Motion Picture, 
Broadcasting and Recorded Sound we have Jayne Mansfield with 
her Harley in ``Miss Traffic Stopper of 1962.''
    Senator Campbell. I will keep that one.
    Well, thank you. Somebody must have told you how to get my 
attention.
    Dr. Billington. Thank you.
    Senator Campbell. Did General Scott have any additional 
comments for this?
    General Scott. Yes, sir, I do.
    Senator Campbell. All right. I have some questions I would 
like to ask. But I would also like to note with interest the 
former chairman, Senator Bennett, is here. And if Senator 
Bennett or Senator Stevens either has a statement, why, if they 
would like to proceed.
    Senator Bennett. No, sir, Mr. Chairman. We are just 
admiring the expert way in which you are handling----
    Senator Campbell. You mean the way Dr. Billington is 
handling me.
    Senator Stevens. It was Harley-Davidson that the rich folk 
bought. There was another one. It was called the JD, the Junior 
Davis. Did you know about the Junior Davis?
    Dr. Billington. Well, that looks like it will have to be 
another website.
    Senator Stevens. JD. They were, what, 80 horsepower?
    Senator Campbell. Yes, they were small.
    [The statements follow:]

               Prepared Statements of James H. Billington

    I appreciate the opportunity to discuss the Library of Congress 
budget request for fiscal year 2004. The Congress of the United States 
has created the largest repository of human knowledge in the history of 
the world and has preserved the mint record of American intellectual 
creativity. The Library's mission of making its resources available and 
useful to the Congress and the American people and sustaining and 
preserving a universal collection of knowledge and creativity for 
future generations is more important than ever in today's environment.
    The Library is supporting the war effort by making available to the 
Congress information resources that continue to gain in importance as a 
critical strategic asset as people are turning to on-line digital 
resources for more and more information, and Congress and the nation 
are using the Library of Congress's expanding digital resources at an 
ever-increasing rate. The Library processed more than two billion 
electronic transactions on our Web sites in fiscal year 2002, and that 
number seems likely to exceed three billion in fiscal year 2003. 
Technology has made it possible for the Library to extend its reach far 
beyond the walls of its buildings in Washington to every corner of the 
world.
    Our founding fathers linked governance to learning, and legislation 
to libraries, from the first time the Continental Congress convened--in 
a room opposite a library--in Philadelphia on Monday, September 5, 
1774. Article I, Section 8 of the Constitution was designed to promote 
``the progress of science and useful arts.'' The first joint committee 
of the Congress in the new capital of Washington, D.C., was created for 
its library. Congress created the world's first nationwide network of 
library-based higher educational institutions in 1862 when the Morrill 
Act built land grant universities--underscoring the basic Jeffersonian 
belief that democracy, to be dynamic, had to be based on more people 
using knowledge in more ways.
    The Library of Congress is uniquely positioned to support the work 
of the Congress and the creative dynamism of America in the early 21st 
century. Three central features of the Library point the way.
  --The Library of Congress (through its Congressional Research Service 
        and Law Library) provides the principal research support for 
        the Congress. The Library also serves the American people, 
        along with other institutions, as a source of knowledge 
        navigation for the increasingly chaotic profusion of 
        information and knowledge flooding the Internet.
  --The Congress's Library is America's strategic reserve of the 
        world's knowledge and information. With more than 126 million 
        items in its collections, the Library is the only institution 
        in the world that comes anywhere close to acquiring everything 
        important for America (except for medicine and agriculture, 
        which have their own national libraries) in whatever language 
        and format it is produced. The Library's unique web of 
        international exchanges, and of overseas procurement offices 
        (Islamabad, Cairo, Jakarta, New Delhi, Nairobi, and Rio de 
        Janeiro), together with purchases and its U.S. copyright 
        deposits, generate an estimated inflow of 22,000 items a day, 
        of which we retain 10,000.
  --The Congress's Library is the central hub of two important 
        knowledge networks: America's national network of libraries and 
        other repositories, and an international network of major 
        libraries. The Library of Congress is recognized as a leading 
        provider of free, high-quality content on the Internet. Just as 
        the Congress endorsed the Library of Congress providing other 
        libraries its cataloging data for print material in the early 
        20th century, so it has now mandated its Library in the early 
        21st century to create the metadata and plan for a distributed 
        national network for storing and making accessible digital 
        material.
    The Library is a knowledge center for accumulating information and 
helping distill it into scholarly knowledge and practical wisdom. We 
are constructing a national collaborative effort, at Congress's behest, 
to preserve digital materials for our national information reserve. The 
Library submitted a National Digital Information Infrastructure and 
Preservation Program (NDIIPP) plan to the Congress for establishing a 
national network of committed partners who will collaborate in a 
digital preservation architecture with defined roles and 
responsibilities. The plan was approved in December 2002, and the 
Library now plans to launch practical projects and research that will 
develop a national preservation infrastructure. Funding for the NDIIPP 
plan has already been appropriated by the Congress. Most of it will 
require matching private sector contributions.
    Thanks to the continuing support of the Congress, its Library is in 
a position both to sustain its historical mission in the new arena of 
electronic information and to make major new contributions to the 
global and domestic needs of the United States in an increasingly 
competitive and dangerous world. In the new networked world, the 
Library must combine leadership functions that only it can perform with 
catalytic activities relying on new, networked partnerships with both 
other nonprofit repositories and the productive private sector. The 
Library will need the staff, the structures, and the focus to perform 
only those roles that are central to its mission and which it is 
uniquely equipped to perform. To do so the Library must sustain most of 
its present operations but at the same time face three major changes 
that will reach across all aspects of the Library in the next decade.
  --The Library's marvelous workforce must to a large extent be 
        retrained or renewed. Facing a disproportionately large number 
        of experienced personnel at or nearing retirement age, we must 
        create a workforce that will in the aggregate provide an even 
        greater diversity of both backgrounds and technical skills. The 
        staff for the 21st century must include highly skilled and 
        well-trained experts in both new technologies and the 
        traditional scholarly and substantive subjects required by the 
        richness and variety of the collections. This personnel need 
        is, in many ways, the most important single requirement the 
        Library will face in the next decade.
  --The Library will have to create new structures, both technical and 
        human, of sufficient flexibility to enable the Library to deal 
        with the fast-moving ever-changing electronic universe, and to 
        integrate digital materials seamlessly into the massive analog 
        collections of the Library. These structures must be set up in 
        such a way that they can work effectively in an increasingly 
        distributed and networked environment, and simultaneously 
        guarantee fast and full global coverage for the Congress. The 
        Library has been largely able to provide information in the 
        analog universe; but it may have to share this responsibility 
        with others in the digital network if they can guarantee quick 
        responses to Congressional and CRS requests.
  --The Library must concentrate more of its overall energies and 
        talents on developing the deep substantive scholarly expertise 
        that will enable the staff to navigate, authenticate, and 
        analyze knowledge for the Congress and the nation. It will be 
        important in the future not only to provide access to the 
        Library's collections, but to extend and deepen the objective 
        guidance that both the Congress and the scholarly world will 
        need in confronting the inundation of unfiltered electronic 
        information.
    For fiscal year 2004, the Library continues to face daunting 
challenges in: (1) implementing security measures and a police force 
merger; (2) acquiring, preserving, and storing--and ensuring rights-
protected access to--the proliferating materials that are produced in 
both analog and digital formats; (3) planning to replace the 42 percent 
of our current staff who will become eligible to retire between now and 
the end of fiscal year 2008; and (4) changing the Library's operations 
by incorporating constantly evolving methods for communicating 
information.
    The Library's budget request is driven primarily by our mission to 
acquire, process, make accessible, and store some three million new 
artifactual items annually, while at the same time harvesting the 
exponential growth of electronic materials. Additional fiscal year 2004 
budget resources are needed mainly for managing our growing 
collections, incorporating rapidly changing technology into our 
operations, and covering mandatory pay raises and unavoidable price 
increases. The Library seeks support in its fiscal year 2004 budget 
request not for any new functions, but simply for the resources needed 
to perform our historic service in a radically changing environment.
    To meet these challenges, the Library requests additional fiscal 
year 2004 budget funds to improve physical security and support 
collections security and management (including the construction of the 
National Audio-Visual Conservation Center at Culpeper, Va.); to support 
the Copyright Office's reengineering efforts; and to enhance access to 
Congressional Research Service (CRS) products and increase CRS research 
capacity in critical areas.
    For fiscal year 2004, the Library of Congress requests a total 
budget of $576.6 million ($540.1 million in net appropriations and 
$36.5 million in authority to use receipts), a net increase of $44.5 
million above the fiscal year 2003 level. The requested increase 
includes $23.6 million for mandatory pay and price-level increases, and 
$48.3 million for program increases, offset by $27.4 million for 
nonrecurring costs. The Library's fiscal year 2004 budget request is a 
net increase of 8.4 percent above fiscal year 2003.
    Requested funding will support 4,365 full-time-equivalent (FTE) 
positions, an increase of 124 FTEs over the fiscal year 2003 target of 
4,241. The Library is assuming staffing at the fiscal year 2003 target 
level and requesting the additional FTEs largely to implement security 
standards and to support the Library's massive artifactual collections.
    The fiscal year 2004 budget increase is needed to fund the 
following major initiatives (which I will address in detail later in 
this statement):
  --Physical Security ($17.5 million and 62 FTEs).--Additional police 
        are required to staff new posts and implement Capitol Hill 
        security standards. Funding is also required to implement the 
        new alternative computer facility, a new public address system, 
        and enhanced emergency preparedness procedures.
  --Collections Security and Management ($14.1 million and 30 FTEs).--
        The National Audio-Visual Conservation Center (NAVCC) at 
        Culpeper, Va., will enable the Library to redress significant 
        limitations in its ability to store, secure, preserve, and 
        provide access to more than 900,000 films and 2.6 million audio 
        materials. The NAVCC will be constructed in two phases: in 
        2004, storage building and infrastructure; and in 2005, 
        processing building and nitrate storage. Additional NAVCC 
        funding of $11.1 million and 8 FTEs is required in fiscal year 
        2004 to maintain the construction schedule. It is essential to 
        demonstrate this level of public support if we are to secure 
        the unprecedentedly large private-sector support that we expect 
        to receive when this facility is conveyed to the U.S. 
        Government. The Library also requires $3 million and 22 
        temporary FTEs to improve the collections security and 
        management of its other vast collections, including reducing 
        the arrearage of unprocessed items.
  --Copyright Office ($7.8 million).--Funding is required to restore 
        the one-time $5.7 million fiscal year 2003 base reduction 
        resulting from the availability of fiscal year 2002 
        supplemental no-year funding, and $2.1 million is required to 
        support the ongoing reengineering project.
  --Congressional Research Service ($2.7 million).--The Congress must 
        have uninterrupted access to the policy expertise and 
        information resources needed to address key public policy 
        issues. CRS is requesting additional resources to ensure 
        continuity of business operations, to enhance capacity for 
        database management, and to reform workforce practices that add 
        incentives to encourage staff retention, which in turn will 
        enhance the quality, access, and timeliness of its 
        Congressional research and information services.
  --Other Core Programs and Mandated Projects ($6.2 million and 28 
        FTEs).--Several of the Library's core programs require 
        additional resources, including the mass deacidification 
        program, the Integrated Library System, the Law Library 
        acquisitions program, the talking books program, the Office of 
        Inspector General, and the Library's space management program. 
        In addition, several congressionally mandated programs require 
        the resources adequate to accomplish their assigned missions: 
        the Veterans History Project; the Meeting of Frontiers program, 
        the National Film Preservation Foundation, and the retail sales 
        program.
    Concurrent with the submission of this budget request, the Library 
has submitted an fiscal year 2003 supplemental appropriations request 
of $7.4 million for two physical security items that are included in 
our fiscal year 2004 physical security budget request of $17.5 million. 
If approved, the two items would immediately support our emergency 
management program and alternative computer facility, and the Library's 
fiscal year 2004 budget request could be reduced by $7.4 million.

                     THE LIBRARY OF CONGRESS TODAY

    The core of the Library is its incomparable collections and the 
specialists who interpret and share them. The Library's 126 million 
items include almost all languages and media through which knowledge 
and creativity are preserved and communicated.
    The Library has more than 28 million items in its print 
collections, including 5,706 volumes printed before the year 1500; 12.3 
million photographs; 4.9 million maps; 2.6 million audio recordings; 
900,000 motion pictures, including the earliest movies ever made; 5.1 
million pieces of music; and 56.1 million pages of personal papers and 
manuscripts, including those of 23 U.S. Presidents, as well as hundreds 
of thousands of scientific and government documents.
    New treasures are added each year. Notable acquisitions during 
fiscal year 2002 include: one of the earliest maps to identify the 
United States as an independent country (Carte des Etats De L'Amerique 
Suivant le Traite de paix de 1783, Dediee et presentee a s. Excellence 
Mr. Benjamin Franklin), with extensive marginal text reporting the 
military events of the American Revolution; the comprehensive papers of 
Jackie Robinson, including more than 7,000 items on all aspects of his 
life; 26 rare Afghan monographs smuggled out of Afghanistan during the 
Taliban era; 67 North Korean movies and additional North Korean videos; 
and the Prelinger Collection of more than 48,000 historical motion 
pictures, which brings together a variety of American ephemeral 
advertising, educational, industrial, amateur, and documentary films of 
everyday life, culture, and industry in 20th century America.
    Every workday, the Library's staff adds more than 10,000 new items 
to the collections after organizing and cataloging them. The staff then 
shares them with the Congress and the nation--by assisting users in the 
Library's reading rooms, by providing on-line access across the nation 
to many items, and by featuring the Library's collections in cultural 
programs.
    Every year the Library delivers more than 800,000 research 
responses and services to the Congress, registers more than 520,000 
copyright claims, and circulates more than 23 million audio and braille 
books and magazines free of charge to blind and physically handicapped 
individuals all across America. The Library annually catalogs more than 
300,000 books and serials, providing its bibliographic records 
inexpensively to the nation's libraries, thus saving them millions of 
dollars annually.
    The Library also provides Congressional offices, federal agencies, 
libraries, and the public with free on-line access, via the Internet, 
to its automated information files, which contain more than 75 million 
records. The Library's Internet-based systems include major World Wide 
Web services (e.g., Legislative Information System, THOMAS, 
<www.loc.gov>, <www.AmericasLibrary.gov>, Global Legal Information 
Network, the Library of Congress On-line Public Access Catalog 
[<www.catalog.loc.gov>], and various file transfer options).

                    FISCAL YEAR 2002 ACCOMPLISHMENTS

    Fiscal year 2002 was an exciting year for the Library of Congress. 
Major achievements include the completion of the congressionally 
mandated National Digital Information Infrastructure and Preservation 
Program plan; the addition of 14 new multimedia historical collections 
to the American Memory Web site, increasing to more than 7.8 million 
the number of items freely available on-line; responding to the 
September 11th terrorist attack and subsequent anthrax incidents by 
providing focused research support for the Congress on terrorism and 
homeland security and by acquiring and preserving historically 
significant items for a worldwide record of the events and their 
aftermath; improving the security of the Library's people, collections, 
and buildings; reducing the Library's arrearage of uncataloged 
collections by more than one million items; and recording more than 2 
billion electronic transactions on the Library's Internet Web sites.

                           PHYSICAL SECURITY

    The Library is requesting a $17.5 million and 62-FTE increase to 
support improved security of the Library's people, collections, and 
buildings. Components of the increase are:
  --Police Staffing.--The Library is requesting $4.8 million and 54 
        FTEs as the first increment of increasing the Library's police 
        force by 108 FTEs, including four support personnel. The 
        increase in police staffing cannot wait until the merger with 
        the Capitol Police is completed. Enhanced security and new 
        posts require more police to ensure that all building entrances 
        are staffed at the standard level, that new and enhanced 
        exterior posts are staffed, and that overtime is not excessive.
  --Alternative Computer Facility (ACF).--The Library is requesting 
        $2,759,000 and 2 FTEs for ongoing operational costs of the ACF, 
        including hardware and software maintenance and networking and 
        telecommunications costs. In addition, $1,863,000 is required 
        for CRS to implement its portion of the ACF, including the 
        purchase of hardware, software, and contract staff to plan, 
        design, and establish data linkages with the Library's Capitol 
        Hill computer center and to reprogram its request tracking 
        system. The Library's computer operations remain vulnerable to 
        a Capitol Hill disaster until the ACF is brought on-line.
  --Public Address System.--To provide effective communications for all 
        emergency situations, the Library is requesting $5.5 million to 
        implement a public address system for its three Capitol Hill 
        buildings and for the special facilities center. The current 
        inadequate public address system is built into the existing 
        fire alarm system, maintained by the Architect of the Capitol 
        (AOC). While improvements to the fire alarm system are being 
        considered; by 2007, the proposed upgrades would not meet the 
        Library's current operational requirements. These include: 
        communicating effectively in emergency and non-emergency 
        situations; reaching all areas throughout the Library 
        buildings; providing accurate and timely information; advising 
        staff appropriately to mitigate risk and potential loss of 
        life; and evacuating buildings expeditiously and in an orderly 
        manner. To protect its staff and visitors in today's uncertain 
        environment, the Library needs these improvements now.
  --Security Enhancement Plan Additional Requirements.--The Capitol 
        Hill security enhancement implementation plan approved by the 
        Congress in 1999 called for the consolidation of the Library's 
        two police command centers, the installation of a new intrusion 
        detection system, and improved police communications. The 
        Library is requesting $2.1 million and one FTE to meet 
        additional requirements associated with these tasks, including 
        $1 million for additional card readers and door alarms.
  --Emergency Management.--The Library is requesting $511,000 and 5 
        FTEs to establish an Office of Emergency Management and create 
        a medical emergency coordinator position. The part-time 
        collateral duty for the Library's existing staff who perform 
        emergency management responsibilities is inadequate for today's 
        challenges. The office would coordinate emergency planning, 
        training, and operations (response and recovery). The medical 
        emergency coordinator would provide research, analysis, and 
        interpretation of medical issues. Funding the Library's 
        security request will enhance the Library's ability to protect 
        its priceless staff and collections and lessen the 
        vulnerability of the entire Capitol Hill complex by making the 
        Library's security more compatible with that of the complex as 
        a whole.

                  COLLECTIONS SECURITY AND MANAGEMENT

    A total of $14.1 million and 30 FTEs is requested for the 
preservation, security, and management of the Library's collections. 
Funding is requested for the following:
  --$11 million for the National Audio-Visual Conservation Center.--The 
        National Audio-Visual Conservation Center (NAVCC) located in 
        Culpeper, Va., will be a world-class, state-of-the-art 
        conservation center that will, for the first time, consolidate 
        and integrate the Library's Motion Picture, Broadcasting, 
        Recorded Sound Division (MBRS) administrative, acquisitions, 
        processing, storage, preservation, laboratory transfer, and 
        reformatting activities in one central facility. Audiovisual 
        materials contain an ever-increasing percentage of the 
        historical record. Principally funded by what will be the 
        largest private gift in the history of the Library, it is 
        essential at this stage to demonstrate Congressional sustaining 
        support for this largely privately funded public resource. The 
        NAVCC will enable the Library to redress significant 
        limitations in its current ability to store, preserve and 
        provide access to its moving image and recorded sound 
        collections in the following ways:
    --Collections Storage.--The Library's moving image and sound 
            collections are currently housed in storage facilities in 
            four states and the District of Columbia. When the NAVCC is 
            opened, the Library for the first time will be able to 
            consolidate all its collections in a single, centralized 
            storage facility that provides space sufficient to house 
            projected collections growth for 25 years beyond the NAVCC 
            move-in date.
    --Preservation Reformatting.--The NAVCC Film and Sound & Video 
            Preservation Laboratories are being designed to increase 
            significantly the number of items preserved for all types 
            of audiovisual formats. Without the NAVCC, the Library's 
            current preservation rate would result in the preservation 
            of only 5 percent of its total endangered sound and video 
            materials by the year 2015. By contrast, we project that 
            the new NAVCC laboratories will enable us to preserve more 
            than 50 percent of these endangered collections in the same 
            10-year period after move-in.
    --Digital Repository and Access.--The NAVCC will also include a 
            Digital Audio-Visual Preservation System that will preserve 
            and provide research access to both newly acquired born-
            digital content, as well as analog legacy formats. This new 
            system is contributing to the Library's overall development 
            of a digital content repository and uses a new paradigm of 
            producing and managing computer-based digital data.
      The bulk of the $11 million fiscal year 2004 NAVCC budget request 
        is for collections storage shelving. This includes $3.6 million 
        for high-density mobile shelving that will be used to fill the 
        large vault rooms in the main collections building and $4.1 
        million for special shelving to outfit the more than 120 
        smaller vaults that will be separately constructed and 
        dedicated to the storage of nitrate motion picture film. The 
        shelving will maximize storage capacity for the many moving 
        image and recorded sound formats held by the MBRS Division. The 
        fiscal year 2004 request also includes $1 million for 
        telecommunications equipment and cabling; $1,285,000 and 6 FTEs 
        for digital preservation; $694,000 for security equipment; and 
        $240,000 and 2 FTEs for administrative support. Collections 
        shelving, security equipment, and telecommunications cabling 
        and equipment (regular Library operational costs) are required 
        to maintain the schedule for implementing this critical 
        facility, which will ultimately hold more than 900,000 films 
        and 2.6 million audio materials. The facility will be 
        constructed in two phases: in 2004, non-nitrate storage 
        building; in 2005, processing building and nitrate storage. 
        Funding this year is critical to meeting this construction 
        schedule as well as helping to finalize the private-sector 
        investment in this facility, which is estimated to exceed $120 
        million. The AOC contribution of $16.5 million for the 
        acquisition of the facility has already been appropriated, but 
        the AOC requires $1.3 million in additional fiscal year 2004 
        resources for operations and maintenance of the facility.
  --$1,900,000 to secure the collections by improved inventory 
        management.--The Library's collections security plan requires 
        tracking incoming materials using the Library of Congress 
        Integrated Library System (LC ILS). The Library has embarked 
        upon a multiyear program to enhance the accountability of 
        collections serials and several special-format collections. 
        Additional contract resources are requested to check in serial 
        issues as they are received, create item records for serials as 
        individual issues are bound, barcode and link each self-
        contained serial volume and incoming non-rare monographs, and 
        convert 10,000 Japanese, Chinese, and Korean serial titles from 
        manual files to the LC ILS. Using the LC ILS, the Library also 
        proposes to use contract resources to: establish on-line 
        records for 2,500 American Folklife Center ethnographic 
        collections; achieve effective tracking, circulation, and 
        inventory control for the 850,000 items in the collections of 
        the Rare Book and Special Collections Division; and prepare 
        holdings records for nearly 250,000 manuscript boxes in the 
        Manuscript Division.
  --$1,157,000 and 22 FTEs to reduce the Acquisitions Directorate 
        arrearage.--The Library has not received a sizable infusion of 
        new staff to help meet its obligation to reduce the arrearage 
        for more than a decade. The current level of staffing will not 
        permit the Library to meet the congressionally mandated 
        arrearage reduction goals for fiscal year 2004 and beyond. The 
        Library is asking for a three-year extension in meeting its 
        non-rare print and non-print arrearage targets, along with the 
        temporary staff needed to meet the targets within the revised 
        time frame.

                            COPYRIGHT OFFICE

    The Library's Copyright Office promotes creativity and effective 
copyright protection, annually processing more than 520,000 claims. 
Each year, the office transfers about 900,000 works, with an estimated 
value of more than $30 million, to the permanent collections of the 
Library. The office also records more than 10,000 documents referring 
to approximately 250,000 titles and responds to more than 360,000 
requests for information a year.
    In fiscal year 2002, the Copyright Office was provided $7.5 million 
in supplemental appropriations to cover potential receipt shortfalls 
due to the disruption of U.S. mail delivery following the anthrax 
incidents. Once all the mail was processed, at the end of fiscal year 
2002, $5.6 million of the supplemental appropriations remained 
available and was subsequently used to offset the fiscal year 2003 
appropriation, requiring the Copyright Office to use its remaining no-
year funds for basic operations in fiscal year 2003. For fiscal year 
2004, restoration of the funds is needed to support the Copyright 
Office's operations. The Library also requests $2.1 million to keep the 
Copyright Office's re-engineering project on schedule, which is 
critical to meeting its mission in the digital age. The Copyright 
Office must replace outdated information systems that have evolved over 
the past 20 years with modern technology that promotes the use of 
electronically received applications and works. The Register of 
Copyrights will provide more details about this critical project in her 
statement.

                     CONGRESSIONAL RESEARCH SERVICE

    As a pooled resource of nonpartisan analysis and information, CRS 
is a valuable and cost-effective asset to the Congress. To carry out 
its mission, CRS staff provide a wide range of analytic and research 
services, including close support to the Members and committees 
throughout the legislative process by interdisciplinary research, which 
includes reports and consultations, analyses of alternative legislative 
proposals and their impacts, assistance with hearings and other phases 
of the legislative and oversight processes, and analysis of emerging 
issues and trend data.
    In addition to funding for the CRS portion of the ACF, CRS is 
requesting additional resources in three areas: (1) $1,460,000 to 
develop technical solutions that ensure that the Service's materials 
are available to the Congress whenever and wherever they may be 
required; (2) $759,000 to add specialized technical capacity for 
database management activities; and (3) $535,000 for incentives that 
encourage staff retention. The resources respond to the Congressional 
mandate and will enhance CRS effectiveness and efficiency through 
improved business processes and updated workforce policies. The CRS 
Director will provide more details of the request in his statement.

               OTHER CORE PROGRAMS AND MANDATED PROJECTS

    The Library is requesting a total increase of $5.2 million and 28 
FTEs for core programs and projects and for congressionally mandated 
projects. Components of the increase are:

Core Programs
    Mass Deacidification.--The Library requests $919,000 to support the 
fourth of five increments required in our 30-year (one generation) mass 
deacidification program. The Congress approved the first three 
increments of this critical preservation program, and the Library 
requests a planned increase of $919,000 to continue to scale up to $5.7 
million by fiscal year 2005. By 2005, the Library plans to have reached 
the capacity to deacidify 300,000 books and 1,000,000 manuscripts 
annually.
    Law Library Purchase of Materials.--The Library is requesting 
$360,000 to increase the fiscal year 2003 budget of $1.5 million for 
purchasing law materials above the normal inflationary increase. The 
current base is not sufficient to acquire a comprehensive collection to 
support the Congress, and as a result, the Law Library is no longer 
able to respond quickly to key Congressional questions on issues such 
as anti-terrorism, foreign taxation, international criminal court, etc.
    Library of Congress Integrated Library System.--The Library is 
requesting a total fiscal year 2004 budget of $1,289,000 for the LC 
ILS, an increase of $384,000. The increase would support implementation 
of this mission-critical system for collections control and security, 
including additional bar code scanners and printers.
    Space Moves.--The Library is requesting $1.3 million for contract 
services to expand our capacity to handle space moves within the 
Library's three Capitol Hill buildings. As the Library re-engineers its 
business processes, additional capacity is required to make space 
changes to facilitate the new work flows. This additional capacity 
would enable the Library to avoid serious delays in the implementation 
of space improvements, which reduce the effectiveness and efficiency of 
operations.
    Inspector General Computer Security Audits.--The Office of the 
Inspector General (OIG) is requesting an increase of $200,000 and 2 
FTEs to ensure that agency-wide and system-level information technology 
security reviews covering operational and technical controls, policy, 
and management are performed. The new auditors are required to address 
the Library's longstanding weaknesses in information technology 
security.

Congressionally Mandated Projects
    Veterans History Project (VHP).--In fiscal year 2003, the Congress 
approved $476,000 and 6 FTEs for this massive project. The overwhelming 
nationwide reaction to this popular program has exceeded our 
expectations, and the Library requests an additional $579,000 and 7 
FTEs to respond to the demands of this mandated program for interviews 
of a potential veteran population of 18 million.
    Meeting of Frontiers.--In fiscal year 1999, the Congress 
appropriated $2 million to digitize and place on-line materials from 
both Russia and United States to tell the story of the American 
exploration and settlement of the West, the parallel Russian 
exploration and settlement of Siberia and the Far East, and the meeting 
of the Russian-American frontier in Alaska and the Pacific Northwest. 
To date, the Web site for the project includes about 100,000 images. 
The Library is requesting $375,000 and 3 FTEs to continue the project 
in fiscal year 2004, including digitizing more items and continuing and 
promoting the educational use of the materials in both countries.
    National Film Preservation Foundation.--Authorization for the 
National Film Preservation Board and the National Film Preservation 
Foundation expires on October 11, 2003. As part of the reauthorization 
legislation for the film foundation, the Library is seeking to increase 
the government's matching contributions from $250,000 to $500,000. The 
film foundation has a proven track record of preserving our film 
heritage through matching private-sector grants, which is a cost-
effective way to address this critical need. The foundation has 
supported a large number of small preservation centers all across 
America.
    Retail Sales Programs.--The Library requests $715,000 and 5 FTEs to 
provide capital for the retail sales program, including the Sales Shop 
and the Photoduplication Service. The added funding would support 
additional e-commerce and marketing efforts designed to generate 
profits from the Library's retail sales program, which would be used to 
benefit the Library's core programs. Without an initial infusion of 
capital, the Library will be able to implement only incremental 
improvements toward making these programs into profit centers that can 
support other Library activities.

   NATIONAL LIBRARY SERVICE FOR THE BLIND AND PHYSICALLY HANDICAPPED

    The Library administers a free national library program of braille 
and recorded materials for blind and physically handicapped persons 
through its National Library Service for the Blind and Physically 
Handicapped (NLS). Under a special provision of the U.S. copyright law 
and with the permission of authors and publishers of works not covered 
by the provision, NLS selects and produces full-length books and 
magazines in braille and on recorded disc and cassette. The Library 
distributes reading materials to a cooperating network of regional and 
subregional (local, nonfederal) libraries, where they are circulated to 
eligible borrowers. Reading materials and playback machines are sent to 
borrowers and returned to libraries by postage-free mail. Established 
by an act of Congress in 1931 to serve blind adults, the NLS program 
was expanded in 1952 to include children, in 1962 to provide music 
materials, and in 1966 to include individuals with other physical 
impairments that prevent the reading of standard print.
    The fiscal year 2004 budget maintains program services by funding 
mandatory pay and price-level increases totaling $1,068,000 and 
restores a $1 million one-time base reduction for purchase of talking 
book machines, which is offset by a $1 million decrease for a one-time 
payment to the National Federation of the Blind. Restoring the one-time 
base cut and funding the fiscal year 2004 increase is necessary to 
ensure that all eligible individuals are provided appropriate reading 
materials and to maintain a level of sound reproduction machines able 
to satisfy basic users' requirements without delays. The budget 
continues to support the exploration of alternative digital 
technologies, which will ultimately lead to a new delivery system to 
replace the current analog cassette tape technology.

                     LIBRARY BUILDINGS AND GROUNDS

    The AOC is responsible for the structural and mechanical care and 
maintenance of the Library's buildings and grounds. In coordination 
with the Library, the AOC has requested a fiscal year 2004 budget of 
$47.1 million, an increase of $9.8 million. The AOC budget includes 
funding totaling $4.2 million in appropriations for four projects that 
were requested by the Library.
    As mentioned earlier in this statement, the National Audio-Visual 
Conservation Center in Culpeper, Va., is being constructed, and the AOC 
requires operations and maintenance funding of $1,263,000 during fiscal 
year 2004 to support this critical project. Assurance of the government 
support is critical in leveraging the far larger amount (which has now 
increased to well over 75 percent of the total) that we are raising 
privately for this project.
    The three other Library-requested projects support the security of 
the Library's collections, the design of a logistics warehouse at Fort 
Meade, Maryland, and space modifications in the James Madison Building. 
Library-requested projects are prioritized based on critical need and 
in accordance with both the security needs and the strategic plan of 
the Library. I urge the committee to support the Architect's Library 
Buildings and Grounds budget, which is critical to the Library's 
mission.

                        AUTOMATED HIRING SYSTEM

    Fiscal year 2002 was the first full year of operation for a new 
hiring process that was implemented to resolve outstanding motions 
pending in the Federal District Court related to the Library's hiring 
and selection procedures for professional, administrative, and 
supervisory technical positions. As I reported last year, the Library 
encountered implementation problems associated with the new hiring 
process, including a new automated hiring system. I am pleased to 
report that significant progress has been made. Managers made 300 
professional, administrative, and supervisory technical competitive 
selections in fiscal year 2002 using the new process. This compares 
favorably with 187 such selections during fiscal year 2001 and a five-
year average of 190 positions during the period of fiscal year 1996-
2000. The new process is content-valid (i.e., a strong linkage exists 
among job requirements, application questions, and interview questions 
developed by subject matter experts), and the new process enables the 
Library to reach a wider applicant pool because of its on-line 
capabilities.
    We are absolutely committed to a fair hiring system that meets both 
competitive selection requirements and timeliness goals.

                            FEDLINK PROGRAM

    The Library's FEDLINK revolving fund program coordinates services 
and programs on behalf of federal libraries and information centers, 
including the purchase of library materials. The Faxon Company, a 
FEDLINK vendor that provides subscriptions to participating libraries, 
filed for Chapter 11 bankruptcy protection on January 27, 2002. As part 
of the bankruptcy case, the Library has established a claim of 
approximately $2.5 million for unfilled orders for FEDLINK libraries.
    Faxon and its bankrupt parent company, RoweCom, Inc., intend to 
submit a reorganization plan that calls for the purchase of their 
operations by EBSCO Industries and the resumption of service to 
libraries. At the time of the preparation of this statement, the 
ultimate liability for the Library or the FEDLINK revolving fund 
customers is unknown, but the Library believes a substantial portion of 
the orders will be filled and the claim thereby satisfied. The Library 
will continue to update the committee on the status of this issue and 
any potential need for a deficiency supplemental for the FEDLINK 
revolving fund.

                                SUMMARY

    The Library of Congress is in a critical period when it must, in 
effect, superimpose a select library of digital materials onto its 
traditional artifactual library if it is to continue to be a responsive 
and dynamic force for the Congress and the nation. We are not seeking 
appropriations for any new functions, but rather trying to sustain our 
historic core function of acquiring, preserving, and making accessible 
knowledge and information that is now being generated and communicated 
in a radically new, and particularly impermanent medium.
    Technology change and the growth of our collections will continue 
to drive our budget plans. The Congress deserves great credit for 
supporting all the work that the Library of Congress is doing to 
preserve and make accessible the nation's creative heritage and the 
world's knowledge. Consistently for 203 years, on a bipartisan basis, 
our national legislature has been the greatest single patron of a 
library in the history of the world. As the keeper of America's--and 
much of the world's--creative and intellectual achievements, the 
Library of Congress is keenly aware of the awesome responsibility it 
has been given as we embrace the wonders and opportunities of the 
digital age.
    With Congressional support of our fiscal year 2004 budget, the 
Library of Congress will continue its dedicated service to the work of 
the Congress and to the creative life of the American people.
    On behalf of the Library and all its staff, I thank the Committee 
for its support, and look forward to working for and with the Congress 
to acquire and transmit knowledge for America.

                                 ______
                                 
               Center for Russian Leadership Development

    Chairman Campbell, Senator Durbin and Members of the Subcommittee: 
The Open World Russian Leadership Program began as a pilot exchange 
program in the Library of Congress in 1999 (Public Law 106-31). The 
Open World Program is now conducted by an independent legislative 
branch entity, the Center for Russian Leadership Development--soon to 
be re-named the Open World Leadership Center. June 2003 marks the 
beginning of the fifth year of the program, which already has 6,265 
alumni (as of April 1, 2003) from all 89 political units of the Russian 
Federation.
    Funding for Open World in fiscal year 2003 was finalized only on 
February 20, 2003, in Public Law 108-7, which also authorized a number 
of significant changes. The program's scope was expanded to include the 
11 remaining Freedom Support Act countries, as well as the three Baltic 
states. The Center's name will change on May 15th to the Open World 
Leadership Center to reflect this expanded mission. The scope of the 
Russian program has also been expanded to include cultural, as well as 
political, leaders. The Center's fiscal year 2004 request of $14.8 
million will allow the program to continue to operate in Russia, to 
maintain its efficient operations and low per capita outlay, and to 
develop pilot expansion programs in two to three countries of the 
former Soviet Union and the Baltics if Congress so authorizes after 
Open World pilots are undertaken in fiscal year 2003.
    The Center's proposed expansion pilots must be approved by this 
subcommittee before being implemented. Let me outline for the members 
of the subcommittee the approach we are taking toward this planning and 
what we expect shortly to recommend to the Center's board and 
ultimately to you. The program expansion requires a number of steps 
before and after the subcommittee's approval:
  --strategic assessment of U.S. foreign policy goals and objectives 
        for each country, as well as an assessment of past and planned 
        U.S. government aid;
  --assessment of success factors, including the availability of 
        appropriate nominating and host organizations, and logistical 
        and language support;
  --consultation with the Department of State and an assessment of the 
        availability of assistance from the U.S. Embassy for each new 
        pilot country;
  --publication of grant hosting guidelines and review of submitted 
        proposals;
  --grant awards and program implementation, including travel logistics 
        and visas;
  --development of appropriate evaluation tools.
    Once approval has been granted to proceed with expansion pilots, 
implementation will take a minimum of 16 weeks. Tightened visa 
regulations in almost all U.S. embassies necessitate a lead time of 12 
weeks, which takes into account the possible need for in-person 
interviews for a substantial number of delegates. We hope to have all 
travel for this year's exchanges completed by October 2003, although 
this target could change depending on when the pilots are approved. In 
our Russia program, we have already brought 357 participants this year 
through April 9, 2003.
    Our implementation schedule will not allow the results of the 
pilots to be considered by this subcommittee before action is expected 
to be completed on the fiscal year 2004 budget. Because the Center's 
appropriation is made to its Treasury Department trust fund, funding is 
not restricted to fiscal year obligations. The Center proposes, 
therefore, to maintain a reserve of $2 million to be available to fund 
additional countries. A total of 1,600 participants would be brought 
from the Russian Federation since the beginning of 2003; a total of 160 
participants would be brought from expansion states with an evaluation 
mechanism sufficient to support a decision with regard to program 
continuation or further expansion. The Open World Program might serve 
as a useful model for programs to accompany significant U.S. aid to 
nations in support of democratic reforms and institutions. A draft 
timetable and assessment chart are included as Attachments A and B, 
respectively.
    We are requesting $14.8 million for fiscal year 2004, an increase 
of 14.8 percent over the fiscal year 2003 funding level in order to be 
able to expand the fiscal year 2003 pilot programs in as many as three 
new countries into more full-fledged programs. The decision on how many 
and which programs will be so developed will be based on our assessment 
of the successes of the pilots, and the need to maintain the hosting of 
Russian civic leaders at a level comparable to previous years. The 
fiscal year 2004 request is also premised on the continued and modest 
growth of the Russian Cultural Leaders program, another element of 
expansion mandated in the appropriations for fiscal year 2003.

2002 Program Overview and Highlights
    In 2002 Open World welcomed its largest number of participants 
since the program's inception--2,531--more than ten times the number of 
participants in 2001, when the Center was being created as an 
independent entity, and a 58 percent increase over 2000. A fact sheet 
for the Open World Program is included as Attachment C, but let me 
highlight elements of the 2002 program.
  --The program's reach in both the Russian Federation and the United 
        States is broad and deep.
  --We continue to find young leaders with increasingly significant 
        political experience behind them: 50 percent are working in 
        local, regional, and federal government entities; 21 percent, 
        in education and the media (an area exploding in both number 
        and diversity of outlets in Russia); 17 percent, in Russia's 
        still nascent NGO sector.
  --Home hosting in 2002 has been sustained for 85 percent of 
        participants and the availability of new American host sites 
        continues to expand each year.
    A new theme-focused recruitment effort attracted a higher-caliber 
candidate and allowed host organizations and local host communities to 
develop programs with greater professional benefit for participants. 
This focus increased satisfaction with programs and built professional 
as well as personal ties across the two countries--creating in many 
cases ongoing links that expand the benefit of the 10-day intensive 
training program.
    Eight themes were developed in collaboration with the U.S. Embassy 
in Moscow and with U.S. organizations and foundations working in 
Russia: rule of law, economic development, women as leaders, health, 
education reform, environment, federalism, and youth issues (including 
drug, alcohol, and HIV/AIDS intervention programs). Rule of law (17 
percent) and women as leaders (14 percent) were among the largest 
theme-groupings.
  --2002 Participants represented 47 ethnic groups and 86 of 89 regions 
        (total program representation now reaches 55 ethnic groups and 
        89 of 89 regions).
  --Average age of delegates in 2002 was 38.
  --The Center hosted 53 arriving groups (on unique travel dates) 
        comprised of 464 delegations.
  --Most groups arriving in Washington, D.C., received a political and 
        cultural orientation at the Library of Congress.
  --At the suggestion of our Board members and in recognition of the 
        importance of including more of the Muslim population of Russia 
        in Open World, we have made a significant effort to recruit 
        participants from such traditionally Muslim regions as Adigei, 
        Bashkortostan, Dagestan, Karachaevo-Cherkesskaia, and 
        Tatarstan, and have selectively chosen delegates from Chechnia 
        and Ingushetia. The proportion of Open World delegates who are 
        Muslim reflects the percentage of Muslims in the Russian 
        population, and Open World is prepared to increase its 
        recruitment of this population if Members of Congress and our 
        Board request such action.
  --Women comprised 54 percent of the delegates, reflecting the 
        addition of the ``women as leaders'' theme in 2002.
  --Participants in 2002 were hosted in 372 communities in 48 states 
        (including Alaska and Hawaii); overall Open World hosting has 
        reached all 50 states.
  --Colorado hosted 113 participants; Illinois, 168; Utah, 91; Alaska, 
        59; South Dakota, 24.
  --Eighteen host organizations received grants in 2002 (eight 
        organizations were first-time hosts, including the Alaska State 
        Legislature. This is the first elected body to serve as a 
        collective host. We hope to expand the model to other state 
        legislatures as the significance of Russia's regional 
        legislatures grows).
  --Grant applications to host in 2003 (with only civic guidelines 
        posted) already total 23, with hosting capacity of over 4,200 
        participants--and with 10 organizations requesting to host for 
        the first time.

History
    The Open World Russian Leadership Program was initiated as a result 
of a discussion among key Members of Congress in April 1999 and 
launched six weeks later with press announcements in Washington and 
Moscow. The original sponsor of the legislation that created Open World 
(Public Law 106-31) was Senator Ted Stevens (R-Alaska), who now serves 
as Honorary Chair of the Center's Board of Trustees. The program 
continued as a pilot at the Library of Congress until December 2000, 
when Congress created the independent Center for Russian Leadership 
Development (Public Law 106-554) and authorized the Library of Congress 
to continue housing the center and providing administrative support for 
its operations.
    From its inception, Open World has enjoyed strong support from 
Members of Congress. Five members serve on its Board of Trustees 
(Attachment D). This year 34 Members of Congress and five justices of 
the Supreme Court welcomed Open World delegations, joined by 13 
governors; 33 mayors of major cities; state legislators; and community 
and civic leaders in 48 states. At a time when the United States has an 
enhanced understanding of the value of public diplomacy, Open World 
stands as the largest ``people-to-people'' exchange since the 
establishment of the Fulbright-Hays Program and the Peace Corps.
    The Open World Program was created in a few short weeks at a time 
when U.S.-Russian relations were at a particularly difficult point 
during the late spring of 1999. In the intervening years, relations 
between Russia and the United States improved, particularly after the 
tragic events of September 11, 2001.
    Unfortunately, relations between Russia and the United States in 
April 2003 are again strained, and anti-American sentiment is again 
evident in Russia. The percentage of Russians holding unfavorable 
opinions of the United States has risen to a level roughly equivalent 
to opinion tracked during the NATO bombing of Yugoslavia in the spring 
of 1999 (Attachment E). At that time, Congress expressed its judgment 
on the importance of this country's relations with Russia by 
appropriating funds for a new Russian Leadership Program--which the 
Library of Congress organized. We brought 1,975 young emerging 
political leaders from Russia to the United States for the first time 
for brief stays to observe America's democracy and market economy 
firsthand. The participants were active leaders, not scholars; they 
stayed in homes, not hotels; they saw the United States with their own 
eyes and made their own judgments; they immersed themselves in a single 
community.
    Open World participants are the leaders of a struggling but 
emerging democracy in all 89 regions of Russia--not just in Moscow with 
its veneer of fast food restaurants and American television and films. 
Open World participants stay in, and establish often continuing links 
with communities all over America--not just with New York and 
Washington. Thanks to Open World, there are now hundreds of cities and 
towns whose mayors, regional and city legislators, judges, prosecutors, 
educators, entrepreneurs, women leaders, and NGO leaders have been 
welcomed into American communities and homes. While here, these Russian 
leaders have observed and discussed jury trials, health care delivery, 
AIDS prevention, high school drug intervention programs, the nature of 
federalism in emerging democracies, and the financing and building of 
small and medium-sized businesses.

Then and Now
    The Open World Program was initiated in 1999 and is even more 
important today--because cementing Russia's engagement with the West is 
one of the most critical continuing challenges for American foreign 
policy. Russia has a geopolitical position bordering on many of the 
most potentially threatening regions in the world; and it has one of 
the world's largest stores of weapons of mass destruction and of 
untapped natural resources. It is aggressively trying to replace a long 
authoritarian tradition with a fragile democracy; and surprisingly few 
of its leaders have had any experience of how an open society operates.
    The State Department--with whom we consult and work closely (the 
Open World Program is housed in the U.S. Embassy in Moscow) has 
testified this year that Russia is now well on its way in its 
transition to democratic governance and a market economy. Because 
Freedom Support Act assistance to Russia is being phased out over the 
next several years, in part to devote funding to Central Asia, the 
State Department is looking to other assistance and exchange programs, 
such as Open World, to continue to support fundamental change in 
Russia. It is clearly an important priority for the United States to 
engage in public diplomacy and provide increased aid to the states of 
Central Asia, which have understandably received greater attention 
since September 11, 2001. But the work of Russia's emerging and still 
struggling generation of future leaders is not over--it has scarcely 
begun. Opportunities to bring the next generation of Russian leaders--
committed to democracy and real progress--remain strong.
    U.S. visits offered by the Open World Program remain the single 
most important and cost-effective means of continuing a positive and 
productive Russian engagement with the United States whatever the 
fluctuations in our diplomatic relations. The program's home in the 
Legislative Branch secures not only the involvement of Members of 
Congress but a direct connection to the communities and states members 
represent--communities that host Russian Open World leaders in 
unprecedented numbers in American homes and that directly reflect 
American values and ideals.
    A closer look at three program areas will help members of the 
subcommittee better appreciate its reach and impact in Russia:

            Rule of Law
    Since launching the Open World specialized rule of law program in 
2001, the Center for Russian Leadership Development has quickly become 
one of the premier organizations working to support Russian jurists as 
they implement judicial reforms. In 2002, 213 Russian judges 
participated in Open World's specialized program in which five Supreme 
Court justices and two Supreme Commercial Court justices participated. 
Each delegation was hosted for a week in the court of a prominent U.S. 
federal or state judge, who planned and participated in the delegate's 
intensive agenda. In 2002, 42 U.S. judges hosted their Russian 
counterparts, and dozens more--including U.S. Supreme Court Chief 
Justice William H. Rehnquist and Associate Justices Sandra Day 
O'Connor, Anthony M. Kennedy, Ruth Bader Ginsburg, and Stephen G. 
Breyer--played an active role in the Russian jurists' professional 
programs.
    Activities included observing court proceedings; shadowing American 
judges; visiting corrections facilities, police departments, and law 
schools; and participating in roundtables with judges and other legal 
professionals. Topics covered included judicial ethics and 
independence, court administration and security, case management and 
trial procedures. Several delegations also used their Open World visits 
to establish or strengthen sister-court relationships with their host 
courts. Participants were prepared for their community visits by a two-
day orientation program in Washington, D.C., conducted by U.S. judges 
and judicial staff with the Administrative Office of the U.S. Courts 
and the Federal Judicial Center, the federal courts' research and 
education arm.
    U.S. federal host judges were recruited by, and in many cases 
members of, the International Judicial Relations Committee of the U.S. 
Judicial Conference, the federal courts' policy-making body. State host 
judges were members of the Russian American Rule of Law Consortium, a 
network of partnerships among the legal communities of seven Russian 
regions and seven U.S. states.
    Open World worked closely with the Russian Federation Council of 
Judges (the policy-making body for the country's all-federal courts of 
general jurisdiction) and the Supreme Commercial Court of the Russian 
Federation in selecting candidates for the program.
    A special focus of this Open World rule of law programming in 2002 
was jury-trial procedure. The jury-trial system, which was banned 
throughout the Soviet era, was reinstituted on a pilot basis in the 
early 1990s in nine Russian regions. The recent passage of President 
Putin's judicial reform package includes the nationwide expansion of 
jury trials for serious criminal cases. Judges, prosecutors, and 
defense attorneys throughout Russia must now quickly become familiar 
with jury procedures. In response, Open World 2002 included programming 
and hands-on exposure to observe how American-style jury trials are 
conducted for three delegations made up of teams of prosecuting 
attorneys, defense attorneys, and judges.
    Open World 2002 included a new focus on legal education. Twenty-
four deans and faculty of Russian law schools participated in visits 
hosted by Cleveland State University College of Law, George Washington 
University Law School, Rutgers Law School, University of the Pacific 
McGeorge School of Law, University of Maine School of Law, and Vermont 
Law School. Court administrators were also included in the Open World 
2002 specialized rule of law programming, with one delegation 
participating in a court management program hosted by the National 
Center for State Courts in Arlington, Virginia, and in Portland, Oregon 
(where they attended the annual meeting of the National Association of 
Court Managers), and several more high-level court administrators 
joined other delegations.

            Women as Leaders
    The women as leaders theme was a major new focus for the 2002 Open 
World Program in recognition of the markedly increased role of women in 
the new generation of emerging Russian leaders. Aiming to promote the 
professional advancement of women in many fields, the women as leaders 
program gave 361 Russian women new leadership skills, resources, and 
training. The 2002 program targeted specific groups of women, including 
politicians; entrepreneurs; journalists; and activists addressing human 
trafficking and domestic violence. Many women were recommended by 
first-time Open World nominating organizations recruited to nominate 
for this new theme, such as the League of Women Voters, the Alliance of 
American and Russian Women, the Association of Women Journalists, and 
Russia's Ministry of Labor and Social Development.
    During their U.S. visits, participants job shadowed their American 
counterparts, attended leadership training seminars, met with prominent 
researchers and specialists in their given fields, and visited women's 
organizations and other NGOs to learn new strategies for fundraising, 
membership, volunteer recruitment, and advocacy. For example, Vital 
Voices Global Partnership, which works to expand women's roles in 
politics, civil society, and business, conducted an effective training 
program for a group of thirteen Russian women working against the 
serious problem of human trafficking as researchers, counselors, 
activists, and NGO and government leaders. While in the United States, 
the Russian women not only learned about practical strategies to fight 
trafficking, they also built new partnerships with their American 
counterparts involved in this issue, as well as among themselves. The 
importance of creating a support network with other anti-trafficking 
advocates in Russia was summed up by one participant from a small city 
in Russia's Far East, who said, ``I found out we are not alone. I'm 
from so far away, but there are so many of us.''

            Election 2002
    The fall 2002 election cycle enabled the Open World Program to show 
delegates American democracy in action as part of the program's 
federalism and women as leaders themes. Delegations visited polling 
stations; met with candidates, campaign officials, and journalists; 
received demonstrations on voting technology; and observed candidates 
campaigning. To prepare these delegations, a special presentation on 
American elections and the media was given at the D.C. orientation 
session.
    One such delegation included a department head from the Russian 
Federation Presidential Press Service and prominent women journalists. 
This delegation met with the White House Communications Director, 
attended a White House briefing, visited the Baltimore Sun, met with 
Maryland candidates and political campaign officials and attended 
election night receptions. The Alaska State Legislature hosted two 
delegations of regional legislators and elections officials from the 
Russian Far East for elections-related activities that included 
following candidates as they campaigned door-to-door and analyzing the 
election results with state legislators.

Links to Open World Alumni
    Open World seeks to extend the value and significance of the brief 
U.S. visit for its 6,265 alumni with continuing links to American hosts 
and opportunities to meet and work collaboratively with other Open 
World alumni and alumni of other U.S. government-funded exchange 
programs. Open World made a commitment from its inception to track all 
program participants; ours is the single largest and most current 
database of such alumni in Russia. Because of the number of Open World 
alumni, their distribution throughout all regions, and our ability to 
locate them quickly through the database, U.S. government officials at 
the embassy, consulates, Regional Initiative offices, U.S. Foreign 
Commercial Service offices and other federal agencies meet and work 
regularly with them. Ambassador Vershbow recently met with our alumni 
in Perm and at American Corner openings in Arkhangelsk, Kaliningrad, 
Saratov, and Saint Petersburg.
    Open World's alumni bulletins and English-Russian website provide 
the means for communication and enhanced professional opportunities. 
Alumni are eager to provide Open World with topical articles and to 
report on their projects. Privately-funded efforts in 2003 will expand 
opportunities for training, professional development, and 
communication. Particular efforts will be made to link Open World 
alumni with Muskie and FLEX alumni in order to increase and multiply 
the strong U.S.-Russian political and cultural ties these programs each 
embody.
    Alumni are also contributing to local and regional newspapers, 
sharing their experiences and bringing a new perspective on America to 
local readers. In several cities alumni have organized thematic 
conferences upon their return to Russia. One such example was a 
conference on youth policy in America held in Barnaul on International 
Students' Day. Open World alumni explained how local government, the 
business community, and the nonprofit sector in the United States all 
work together to educate young people. Conference attendees received 
lists of American organizations eager to cooperate with them on youth 
issues. One of the youth leaders in Barnaul, Aleksey Ustiugov, said 
that ``on Open World I was able to study all aspects of the U.S. 
educational system and establish relations with youth organizations. 
The program not only fosters mutual understanding, but also strengthens 
trust and friendship between our nations.''

Achievements and Goals
    Open World has engaged and connected American and Russian leaders 
and citizens at all levels of our political system in unprecedented 
numbers.
    Open World has engaged Americans in more than 900 communities in 
all 50 states in public diplomacy. The United States has no finer 
advocates than our own citizens and community leaders who are actively 
involved in the public, private, and voluntary sectors.
    Opportunities to host Open World participants have expanded each 
year in communities all over America. Interest in building mutual 
understanding has increased. Many communities have hosted every year 
since the program began and maintain strong ties to communities and 
colleagues in Russia.
    The effectiveness of the Open World Program has been recognized by 
the Congress, which has now authorized new nation pilots beyond Russia.
    Open World provides a new, cost-effective model for both 
encouraging democratic development abroad and encouraging citizen 
engagement in public diplomacy at home. This model can probably be 
expanded to many other nations.
    Open World's visitors and hosts express best the program's focus 
and results:

            U.S. Ambassador to Russia Alexander Vershbow

    I would just like to thank Open World for giving Russians the 
chance to take part in these exchanges, which in turn help them 
transform the social and economic life of their regions, and this vast 
country as a whole. Your program touches the lives of individuals, but 
their good works in turn will affect and inspire an entire generation 
of Russians.

            Supreme Court Justice Sandra Day O'Connor

    Nothing holds more promise for achieving the long-term security and 
prosperity of the world community than the rule of law. Nations that 
adhere to the rule of law share certain common understandings that 
reach across cultural and political divides. The Open World Russian 
Leadership Program plays a vital role in this dynamic process.

            Judge Paul A. Magnuson, District of Minnesota

    Through this demanding program, Russian judges and legal personnel 
immerse themselves in the U.S. system of justice by partnering with a 
leading Federal or State judge and living as part of an American 
community. Besides the intensive study and knowledge gained relating to 
case management, scheduling, court administration, jury selection, plea 
agreements, pretrial detention procedures, the adversarial process, 
etc.--there are also profound lessons learned about American society, 
the esteemed position of Judges, and the principles of the rule of law. 
It is clear to me, that the judges and legal professionals 
participating in Open World are taking these lessons home with them and 
sharing them with their colleagues, multiplying many times the 
effectiveness of the Open World rule of law exchange program.

            Chairman of the Council of Judges of the Russian Federation 
                    and Supreme Court Justice Yuriy I. Sidorenko

    During the course of the visits, the Russian judges were successful 
in forming solid, fundamental, long-lasting, and fully productive 
relationships between the Russian and American judiciaries. The 
programs allowed the Russian judges to get acquainted with the system 
of justice in the United States and, because of this, they were able to 
further progressive legal reform in Russia. Last year's program 
provided us with a special opportunity to familiarize ourselves with 
the jury trial system in the United States, which, as is well known, is 
once again being introduced in Russia.

            Open World ``Women as Leaders'' Participant Irina Zamula, 
                    City of Ulan Ude, Buryat Republic, Aide to Russian 
                    State Duma Deputy

    The U.S. Library of Congress Open World program is unique. The 
program makes it possible to strengthen relations between our two 
countries at the level of inter-personal relations, and through 
contacts between ordinary citizens, who are able to see, hear and 
understand one another. The many meetings--gave us a lot. But the most 
important thing--they provided us the opportunity to change our 
stereotypical views toward American society.

                                 ______
                                 
   Prepared Statement of Marybeth Peters, The Register of Copyrights

    Mr. Chairman and Members of the Subcommittee: Thank you for the 
opportunity to present the Copyright Office fiscal year 2004 budget 
request. This budget provides the resources for the Copyright Office to 
continue to play a leadership role in addressing, with the Congress, 
the increasingly important and complex copyright issues arising from 
the expanding use of digital technology and computer networks, and to 
fulfill the statutory responsibilities given the Copyright Office in 
our Nation's copyright law.
    In my testimony last year, I urged action on a $7.5 million 
supplemental appropriation request to offset a potential loss of 
receipts due to the anthrax-related disruption of U.S. Postal Service 
mail delivery on Capitol Hill. I begin my testimony this year by 
thanking the committee for approving that request. This funding enabled 
us to maintain our basic operations and ensured that we continued to 
meet public service requirements. We are very grateful that the 
committee recognized the need for this funding and acted so promptly to 
meet it.
    The held mail began to arrive in late April and we made a concerted 
effort to process it, and the fees it contained, as quickly as 
possible. We met our goal of processing all of this held mail by 
September 30th. As a result, the Office only used $1,850,000 by the end 
of fiscal year 2002, and $5,650,000 of the supplemental funds remained 
available. The Office is now, as directed by Congress, using the 
remaining supplemental funds for basic operations in fiscal year 2003. 
Our fiscal year 2003 annual appropriation was reduced by the same 
amount. A principal part of the fiscal year 2004 request I put before 
you today is to restore this $5,650,000 in base funding.
    Our only program change request for fiscal year 2004 is for 
$2,100,000 in new net appropriations and spending authority to build 
integrated information technology systems to support our reengineered 
Copyright Office business processes. The Office is designing these IT 
systems to improve our services to the public and to meet the demand 
for these services online. Copyright Office online services can be a 
major source for the deposit of digital works to the Library of 
Congress. The new net appropriation will be part of the $4.61 million 
in fiscal year 2004 spending for IT systems analysis, design, and 
development. I will address our reengineering program in greater detail 
later in my testimony.

                      THE COPYRIGHT OFFICE MISSION

    The Office's fiscal year 2004 budget request supports the Copyright 
Office's mission to promote creativity by administering and sustaining 
an effective national copyright system. The Office carries out the 
following functions:
  --Administration of the United States Copyright Law.--It processes 
        claims for copyright registration, documents for recordation, 
        and works deposited under the mandatory deposit provisions of 
        the law. It creates public records of these actions and 
        provides copies of deposited works for the Library's 
        collections. For more than 130 years, copyright deposits have 
        been a primary source of works for the Library, especially 
        works by American authors. The Office also administers the 
        law's compulsory licensing provisions, and convenes arbitration 
        panels to determine royalty rates, terms and conditions of 
        licenses, and the disposition of royalties.
  --Policy Assistance, Regulatory Activities, and Litigation.--The 
        Office assists congressional committees in drafting and 
        analyzing legislation relating to intellectual property; 
        carries out important regulatory activities under the Digital 
        Millennium Copyright Act; represents the U.S. Government at 
        international meetings and diplomatic copyright conferences; 
        advises the U.S. Trade Representative, the State Department, 
        and the Commerce Department on domestic and international 
        copyright laws; and assists the Courts and the Department of 
        Justice in litigation involving copyright issues.
  --Public Information and Education.--The Copyright Office provides 
        information to the public about United States copyright and 
        related laws and Copyright Office practices and procedures, and 
        conducts searches, which may be certified, of the copyright 
        records. The Office conducts outreach to inform the public 
        discussion of copyright issues.

                FISCAL YEAR 2004 BUDGET REQUEST SUMMARY

    For fiscal year 2004, Offsetting Collections Authority remains at 
the same level as fiscal year 2003--$23,321,000. This authority is 
based on projected annual fee receipts of $21,500,000, and the use of 
$1,821,000 from the Copyright Office no-year account.
    The Copyright Office no-year account balance totaled $3,850,000 as 
of September 30, 2002. In the current fiscal year the Office will use 
$1,821,000 from the no-year account to partially fund the ongoing 
reengineering program. In fiscal year 2004, the Office proposes to 
continue using no-year account funds for the reengineering program: (1) 
$1,441,000 to partially fund the IT improvements; and (2) $380,000 to 
implement other aspects of reengineering. The use of the no-year funds 
will essentially deplete this account.

      REVIEW OF COPYRIGHT OFFICE ACCOMPLISHMENTS AND FUTURE PLANS

    I would like to briefly highlight some of the Office's current and 
past work, and our plans for fiscal year 2004.
Policy and Legal Responsibilities
    The policy and regulatory work of the Copyright Office is largely 
dictated by the Congress, through responsibilities it gives the Office 
directly in the Copyright Act and through its setting of the 
legislative agenda in this area. Digital technology brings both 
opportunities and problems to the use of copyrighted works. Much is at 
stake in policy deliberations in this area--both in economic terms and 
in advancing education and learning. As such, our policy and regulatory 
work in this area is both increasingly technical and often contentious. 
The proceeding we completed last year on setting rates and terms for 
``webcasting'' and the anticircumvention rulemaking now underway are 
illustrative of this trend.
    On the legislative front, we are pleased that the Technology, 
Education and Copyright Harmonization (TEACH) Act was signed into law 
last year. The TEACH Act promotes digital distance education by 
implementing the recommendations made in my May 1999 report to Congress 
titled ``Report on Copyright and Digital Distance Education.'' At the 
request of the Senate Judiciary Committee, the Copyright Office played 
a key role in bringing about the compromise reflected in the 
legislation by facilitating negotiations between the affected parties.
    We also worked closely with the Judiciary Committees of both houses 
on the issues raised by two 1999 rulings in which the Supreme Court 
determined that the doctrine of sovereign immunity prevents states from 
being held liable for damages for violations of the federal 
intellectual property laws even though states enjoy the full protection 
of those laws. Under current law, copyright owners are unable to obtain 
monetary relief under the copyright law against a state, state entity, 
or state employee unless the state waives its immunity. I testified on 
February 27, 2002, in support of S. 1611. At the request of the 
Judiciary Committees, the Office moderated negotiations between 
intellectual property owners and public universities over the proposed 
legislation, convening a series of meetings over a period of several 
weeks. Through this process, the affected parties were able to reach 
tentative agreement on some issues.
    In a similar manner, over the past year we have advised Members and 
staff on important issues such as piracy in peer-to-peer networks and 
the protection of authentication measures affixed to or embedded in 
certain copyrighted works.
    Congress is also continuing to study options for reform of the 
copyright arbitration royalty panel (CARP) system which the Office 
administers. CARPs are temporary panels composed of hired arbitrators 
who set or adjust royalty rates and terms of statutory licenses, and 
determine royalty distributions. These panels have been operating under 
the auspices of the Copyright Office and the Library of Congress since 
Congress eliminated the Copyright Royalty Tribunal (CRT) in 1993.
    I testified at a June 13 hearing before the House Subcommittee on 
Courts, the Internet, and Intellectual Property to consider how 
effective the CARP process has been thus far and ways in which it can 
be improved. In that testimony, I reviewed the findings of a report on 
CARP reform that the Office had prepared in 1998 at the request of the 
Subcommittee, and I commented on the need to reform the CARP process. 
The Subcommittee held another hearing on this topic this month, and I 
provided testimony then as well. I would note that changes in the 
arbitration system could result in functions that are now funded from 
royalty pools being funded from appropriations. If reform legislation 
is enacted this session with new requirements, our fiscal year 2004 
request would need to be adjusted accordingly.
    As I mentioned, this past year we completed what was perhaps the 
most widely-noticed, and one of the most controversial, CARP 
proceedings the Office has ever undertaken. It involved setting rates 
and terms of payment for two statutory licenses that allow for the 
public performance of a sound recording by means of digital audio 
transmissions, ``webcasting'', and the making of ephemeral recordings 
in furtherance of these transmissions. Under CARP procedures, the panel 
proposes rates and terms and I make a recommendation to the Librarian 
on whether to accept these proposals, or to reject them if they are 
arbitrary or contrary to law. The Librarian, in a June 20 order, 
accepted my recommendation to halve the CARP-proposed rates applicable 
to Internet-only transmissions made by webcasters and commercial 
broadcasters, while accepting the CARP-proposed rates for Internet 
retransmissions of radio broadcasts made by these same services.
    Later in the year, Congress passed into law the Small Webcaster 
Settlement Act. This Act declares that all payments to be made by non-
commercial webcasters during the period of October 28, 1998 until May 
31, 2003, which have not already been paid, shall not be due until June 
20, 2003. With respect to small webcasters, SoundExchange was 
authorized to negotiate agreements with small webcasters; such 
agreements would cover the period from October 28, 1998 through 
December 31, 2004. Once the terms of such agreements were published by 
the Copyright Office in the Federal Register, they would be effective. 
The law required that the royalty payments in these agreements be based 
on a percentage of revenue or expenses, or both, and include a minimum 
fee. These terms would apply in lieu of the decision by the Librarian. 
To encourage agreements, payments of small webcasters would be delayed 
up to December 15, 2002, the date for any agreements to be concluded. 
An agreement was concluded on December 13 and published by the Office 
in the Federal Register of December 24, 2002.
    The section 1201 anticircumvention rulemaking we are currently 
conducting is mandated by the Digital Millennium Copyright Act, which 
provides that the Librarian may exempt certain classes of works from 
the prohibition against circumvention of technological measures that 
control access to copyrighted works. The purpose of this proceeding is 
to determine whether there are particular classes of works as to which 
users are, or are likely to be, adversely affected in their ability to 
make noninfringing uses due to the prohibition on circumvention of 
access controls. The first anticircumvention rulemaking under the DMCA 
was completed in October 2000. The current rulemaking will conclude 
this October.
    The Copyright Office continues to provide ongoing assistance to 
executive branch agencies on international matters, particularly the 
United States Trade Representative (USTR), the Patent and Trademark 
Office (PTO), and the Departments of State and Commerce. There is a 
full agenda of international intellectual property issues in 
international fora, such as those presented in free trade agreements, 
and bilateral negotiations.
    Copyright Office staff were part of the U.S. delegation in the May 
13-17, 2002, and November 4-8, 2002 meetings of the World Intellectual 
Property Organization (WIPO) Standing Committee on Copyright and 
Related Rights, which is considering among other things, a possible 
treaty on the protection of broadcasting organizations. In cooperation 
with the PTO, staff prepared a proposed treaty text that became the 
U.S. proposal and which differed in its scope from the proposals of 
others because of its inclusion of certain activities of webcasters.
    Staff served as part of the U.S. delegation in the World Trade 
Organization (WTO) Council on TRIPS (trade-related aspects of 
intellectual property rights), which met in November 2001 and March, 
June, and September 2002. The TRIPS Council is responsible for 
monitoring the operation of the TRIPS Agreement, and, in particular, 
how members comply with their obligations under it. The Council reviews 
the intellectual property laws of member countries for compliance with 
TRIPS obligations.
    Copyright Office staff were members of the U.S. delegation to the 
November 2001 and September 2002 meetings of the Intellectual Property 
Negotiating Group of the Free Trade Area of the Americas and were 
instrumental in preparations, including the redrafting of U.S. treaty 
proposals. We also participated in the drafting and negotiation of the 
intellectual property provisions of bilateral Free Trade Agreements 
with Chile and Singapore, including the drafting of proposed text, and 
have also taken part in preliminary discussions concerning a possible 
bilateral agreement with Morocco and multilateral agreements with 
groups of nations in Central America and southern Africa.
    As part of its responsibility to provide information and assistance 
to federal departments and agencies and the Judiciary on copyright 
matters, the Copyright Office has assisted the Department of Justice in 
a number of cases, most notably in defending the challenge to the 
Copyright Term Extension Act (CTEA), resulting in the recent decision 
by the Supreme Court in Eldred v. Ashcroft upholding to CTEA.

Registration, Recordation and Cataloging Operations
    The Copyright Office registered and cataloged more than one-half 
million claims for copyrighted works during fiscal year 2002, despite 
the effects of anthrax incidents on Capitol Hill mail and the 
subsequent postal disruption which hampered the flow of claims into the 
Office. The Office received 526,138 claims to copyright covering more 
than 800,000 works and registered 521,041 claims. The Cataloging 
Division received 520,752 registrations in fiscal year 2002 and created 
cataloging records for 578,658. The Division reduced the amount of 
registrations awaiting cataloging from 183,204 to 78,379, a decrease of 
57 percent.
    The Documents Recordation Section received 12,600 documents for 
recordation and cleared 10,506, covering nearly 218,000 titles of 
works.
    During the fiscal year, the Copyright Office transferred to the 
Library of Congress for its collections 896,504 copies of registered 
and unregistered works valued at $31,302,048.

Licensing Activities
    During fiscal year 2002, the Copyright Office administered eight 
CARP proceedings that included five rate adjustment proceedings and 
three distribution proceedings. Of the five rate adjustment 
proceedings, four involved setting rates and terms for the section 114 
digital performance right in sound recordings, and the section 112 
statutory license for the making of ephemeral recordings to facilitate 
these transmissions. The fifth proceeding involved setting rates and 
terms for the section 118 statutory license for the use of certain 
copyrighted works in connection with noncommercial broadcasting.
    The Copyright Office administers the compulsory licenses and a 
statutory obligation under title 17. The Licensing Division collects 
royalty fees from cable operators for retransmitting television and 
radio broadcasts, from satellite carriers for retransmitting 
``superstation'' and network signals, and from importers and 
manufacturers of digital audio recording products for later 
distribution to copyright owners. In fiscal year 2002, the Office 
distributed approximately $110 million to copyright owners. The 
Division deducts its full operating costs from the royalty fees and 
invests the balance in interest-bearing securities with the U.S. 
Treasury.

Copyright Education
    Copyright education is a particularly important aspect of our work, 
as more and more people implicate copyright laws in their daily online 
activities. The Copyright Office responds to public requests for 
information in person, through its website, and via email, telephone, 
and correspondence. It also engages in outreach programs to educate the 
public about copyright issues.
    In fiscal year 2002, the Office as a whole responded to 358,604 
requests for direct reference services, including 57,263 email 
inquiries, of which some 10,000 were on the issue of webcasting. The 
Public Information Section assisted 25,005 members of the public in 
person, taking in 17,644 registration applications and 2,884 documents 
for recordation. The Section answered 123,106 telephone inquiries, 
10,783 letter requests, and 31,681 email requests for information from 
the public, representing an over 100 percent increase in the use of 
email communications. This increase in electronic mail requests is 
partly a result of the public using an alternative means of 
communication during the mail disruption and website modifications that 
made it easier to contact the Office by email.
    The Copyright Office website continued to play a key role in 
disseminating information to the copyright community and the general 
public, with 13 million hits on key pages during the year, an 8 percent 
increase over the prior year.

Reengineering Program
    Over the past three years, we have been undergoing intensive 
planning and design to improve each of the public services I have just 
described. The Office's Reengineering Program will reshape the delivery 
of our public services. We are very grateful for the support this 
Committee has given this important effort.
    The program is progressing along four fronts: process, 
organization, facilities, and information technology. All of these 
areas are linked to each other and have to proceed together. We are 
making good progress and our request for fiscal year 2004 will allow us 
to maintain this momentum. Our goal is to complete implementation of 
our new processes and IT systems in fiscal year 2005.
    This budget requests $2,100,000 to support the development of 
integrated information technology systems for our reengineered public 
services. This request will augment the $2,500,000 to be obtained from 
the Office's base budget. The entire reengineering program depends on 
the development and implementation of new information technology 
systems. So many of the efficiencies we will gain will be from using 
new and better technology, and having all our systems integrated rather 
than working through numerous stand-alone systems as we do now.
    Our fiscal year 2004 request, and our information technology work 
as a whole, is based on careful planning that has been done over the 
past two years. We have completed an extensive study and planning 
effort to design business processes which improve the delivery of our 
public services and allow the public to secure these services online to 
the maximum extent possible. Once we developed processes that we 
believe will enable us to best serve the public, we completed an IT 
requirements analysis, which identified logical systems components and 
potential software packages. This year we plan to award a contract, 
through a government-wide agency contract (GWAC), to begin the work of 
building integrated information technology systems.
    The $2.1 million in new net appropriations will be part of an 
overall $4.61 million budget for this IT systems development work.

                               CONCLUSION

    We expect this will be a busy Congressional session addressing 
copyright matters; we will continue our close collaboration with the 
committees and individual Members on these often complex and wide-
reaching issues. As we continue to fulfill the responsibilities given 
us under the copyright law, including making over one-half million 
registrations each year, we are also intent on maintaining the progress 
of our Reengineering Program to improve these services. Our fiscal year 
2004 request permits us to meet these challenges.

                                 ______
                                 
  Prepared Statement of Daniel P. Mulhollan, Director, Congressional 
                            Research Service

    Mr. Chairman and Members of the Subcommittee: I appreciate the 
opportunity to appear before you today to present the fiscal 2004 
budget request for the Congressional Research Service (CRS). Our 
request focuses on two areas of critical importance to the mission and 
continued success of CRS: ensuring continuity of business operations 
and investing in a new generation of workers who choose public service. 
Before discussing the details of our request, however, I would like to 
thank the Subcommittee for its generous support of our fiscal 2003 
budget.

           ASSISTING THE CONGRESS IN A CHANGED WORLD SETTING

    I come before you today at a time of unprecedented circumstances 
for the Congress, for our Nation, and for the world. We are a Nation at 
war. Beyond increasing efforts to ensure the safety and security of our 
staff and systems here on Capitol Hill, CRS continues to work closely 
with Members and Committees in both Houses on a multitude of issues. 
The mission of CRS is to contribute to an informed national 
legislature--a mission of critical importance during a time of foreign 
turbulence and domestic uncertainties. Our country's past experience, 
from the Civil War to Vietnam, suggests that during wartime Congress 
faces enormous challenges in exercising its constitutional legislative 
and oversight responsibilities. During the Civil War the Congress 
created the Joint Committee on the Conduct of the War to investigate 
military operations. Although subject to criticism for its procedures 
and operations, some scholars have credited the Committee for 
contributing significantly to the war effort. The experience of World 
War II, which saw the creation of the so-called ``Truman Committee'' to 
oversee an unprecedented growth in military spending, led to a 
determination by Congress that it required independent, objective 
analytical support in order to design legislative solutions to the 
problems facing the country and to evaluate effectively the proposals, 
policies, and operations put forward by the Executive Branch. 
Consequently, the Legislative Reorganization Act of 1946 included the 
first statutory charter for CRS with a commitment that Congress would 
have access to research expertise at the same level of quality 
available to the President.
    Similar developments occurred during the Vietnam War, when Congress 
was again forced to make critical decisions on issues affecting U.S. 
foreign policy, military capability, economic policy, and domestic 
stability. Congress again concluded that it needed additional support 
in order to evaluate the implications of competing legislative 
proposals and to monitor the myriad programs administered by the 
Executive Branch. As a result, the Legislative Reorganization Act of 
1970 enhanced the mission and functions of the Legislative Branch by 
expanding the roles and mandates of the Congress' support agencies, 
including CRS, leading to a rapid increase in our staff and research 
capabilities.
    The United States is engaged in a period of international conflict 
that is likely to be more complex and threatening than any we have 
faced before. While traditional and conventional military action may be 
intense, as exemplified by Iraq and Afghanistan, the combination of 
world-wide terrorist networks and rogue states possessing lethal 
weaponry leaves us with the prospect of continuing risks and 
uncertainty, both at home and abroad--this war on terrorism is a war 
without boundaries and with no end in sight. In all of the times that 
the U.S. government has had to confront a war and organized terrorism, 
the challenges have never been as great, nor the consequences of 
failure more potentially catastrophic. The budgetary implications of 
this war on terrorism and the needs of homeland security are enormous 
and will continue to rise, as will numerous questions about how much is 
adequate, how priorities should be set, and how resources should be 
allocated. New policies and programs may be needed to defend against 
conventional, biological, chemical, and nuclear attack by improving our 
threat assessment and response capabilities, federal coordination, law 
enforcement capabilities, and public health services. Indeed, most of 
the issues on the Administration and Congressional agendas are being 
reexamined and reshaped. Congress must be prepared to address these 
challenges in both the short and long term, and CRS must be prepared to 
help you.
    Building on our already close working relationship, my goal is for 
CRS to be there with you at every step of the way as you examine a 
range of critical issues with vital consequences for all Americans. The 
activities supporting the war and homeland security may involve 
difficult tradeoffs between the need for greater security on the one 
hand, and important economic, social, and constitutional considerations 
on the other. Similarly, budgetary realities may well require tough 
choices among competing priorities, as new responsibilities for 
establishing stable and democratic regimes overseas are superimposed on 
multiple requirements for military preparedness, domestic and social 
programs, counter-terrorism and intelligence capabilities, and economic 
stimulus.
    Mr. Chairman, I am grateful for the opportunity CRS has had to 
serve you during this difficult time in our nation's history, and I am 
proud that so many Members and staff have called upon us to deliver the 
type of objective, nonpartisan assistance that only CRS can provide. 
Each Member who has called to request a briefing, and each staffer who 
has called to discuss the implications of a particular policy issue or 
problem, has given us an opportunity to contribute. We identify the 
policy problems the Congress is likely to face, seek out solutions to 
those problems and analyze the implications of those solutions for 
policy. We undertake this legislative research often in anticipation of 
the legislative agenda and in collaboration with you, your colleagues, 
and staff. Thus, we are ready to offer the full analytic/research 
capacity of the Service to you when you need it. Congress can continue 
to rely on CRS to advise and assist the Congress in the analysis, 
appraisal, and evaluation of legislative proposals, in order to assess 
the advisability of enactment, estimate the probable consequences of 
such enactment, both intended and unintended, and examine alternative 
options. This work must be done in a manner that is confidential, 
objective, and nonpartisan, and that offers a balanced treatment of the 
issues involved and a range of options for legislative action. Our 
statutory charter makes it clear that our sole mission is to serve the 
Congress. The financial investment that I seek in this year's budget 
request is an investment with multiple benefits: (1) to continue to 
serve the Congress whenever and wherever you need us--within a flexible 
and secure technical infrastructure; (2) to enhance our research by 
establishing capacity to procure, create, maintain and manipulate the 
large data sets upon which CRS analysts rely to conduct their public 
policy assessments of legislative proposals and specific program 
implementation; and (3) to provide CRS managers with flexible tools and 
incentives that can be used to encourage staff retention.

CONTINUITY OF BUSINESS OPERATIONS TO SERVE THE NEEDS OF CONGRESS AT ALL 
                                 TIMES

    Much of your attention today is focused on security matters--both 
here at home and abroad. The first set of initiatives that I present to 
you relates to safeguarding further the Service's infrastructure to 
ensure that CRS will be ready to support your work needs at any time, 
any place, and in any situation.
    The tragic events of September 11, 2001, and the anthrax incidents 
on Capitol Hill, mandate different and additional organizational 
procedures for every business entity, in both the public and private 
sectors, to confront and guard against the ongoing threat of terrorism. 
Through a shared effort with the House and Senate, CRS and the Library 
of Congress will implement an Alternative Computing Facility and 
Disaster Recovery site. With the additional funding that we are 
seeking, we will plan, design, and implement a backup facility that can 
support CRS and the Congress by mirroring the current technical 
environment. The alternative site will provide us with the 
functionality to resume service to Congress in the event that the 
Madison Building computer facilities are no longer available.
    Second, like most government information technology organizations, 
CRS has mission-critical technical applications that need to be 
available in a secure environment 24 hours a day and 7 days a week (24/
7) under a variety of threat scenarios. Our Inquiry Status and 
Information System--ISIS--is the mission-critical application used to 
receive confidential requests from Congress, assign the work to CRS 
analysts, track the work status through completion, and provide 
managers with key performance statistics and indicators. The current 
architecture of the ISIS application cannot support secure 24/7 access 
from remote locations or when the Library's computer facilities are not 
available, a condition that we will have corrected by the end of fiscal 
2004 if funded.
    The last initiative is in response to a Congressional requirement 
stated in the fiscal 2003 Appropriations Act. The Congress directed CRS 
to take steps to ensure that the Service's materials are available to 
Congress whenever and wherever they may be required. Meeting this 
congressional mandate requires that CRS staff--the creators of the 
research and information materials--be as mobile as Congress and be 
able to work from a variety of places other than their own offices. 
This need can arise in a number of different circumstances--including 
normal work situations as well as emergencies.
    Under normal circumstances, for example, a CRS staffer working 
closely with a conference committee late at night in the Capitol may 
require secure access to statistical data that the committee needs to 
decide the final version of a distribution formula for a particular 
program. An example of an emergency situation is the anthrax incident 
that occurred in October 2001 and forced the evacuation of a number of 
congressional and Capitol Hill buildings, including the Madison 
Building. All CRS staff and many congressional staff had to work from 
alternative locations for varying amounts of time. During this period, 
CRS staff could not access information and research materials stored on 
their personal computers or on CRS servers and, had the emergency 
lasted much longer, they would not have been able to support Members 
and committees as required.
    In both normal and emergency work situations, CRS staff need secure 
access to the full range of information and research systems currently 
available through the Library's computer center and CRS' servers. From 
wherever they might be located, our staff need to be able to receive 
and track requests that Members and committees place by phone or via 
the CRS Web site. To respond to these requests and perform the required 
analyses, staff need access to the full text of their research and 
information sources as well as to their raw data and databases to which 
the Service subscribes or which it builds in-house. CRS staff need to 
be able to create reports and other products that respond to 
congressional requests and they need to get those reports and products 
to Congress by uploading them to a Web site or including them in a 
secure email message for delivery. I am requesting funds to develop and 
implement technical solutions that will provide staff with remote 
access, from a variety of alternative work sites, to electronic 
research and information resources so that analysis can be conducted 
wherever CRS staff may have to work.
    Our goal is continuity of basic business operations. Accordingly, I 
am requesting $3.3 million to establish the CRS alternative computing 
facility, to make ISIS portable, and to develop technical solutions to 
support the Congress at any time, at any location. Concurrent with the 
submission of this budget request, the Library submitted a fiscal 2003 
supplemental appropriation request, on behalf of CRS, for $1.863 
million. If that request is approved, CRS can begin immediately with 
implementation of our portion of the ACF and the ISIS reprogramming, 
leaving $1.460 million for our fiscal 2004 needs.

        ADDING CRS CAPACITY FOR DATA BASE MANAGEMENT ACTIVITIES

    Congress looks to CRS for analysis and information that is derived 
from large data sets and surveys because much of the data needed is not 
collected by executive branch agencies or the states. CRS relies 
increasingly on quantitative analysis to support its work for 
committees and Members. Examples of some of the Service's most recent 
efforts include: analysis of caseload data in the TANF program, 
simulation of alternative policy options for child care tax credits, 
and a historical analysis of foreign aid. To meet this growing demand 
most efficiently, CRS must build permanent, skilled capacity to assign 
basic data collection, acquisition, maintenance, cataloging, data 
manipulation, and processing tasks.
    In fiscal 2002, the Congress provided CRS with funding to enhance 
its research capacity by building a more powerful technical 
infrastructure and adding staff who could perform high-level 
statistical analyses. Given the growing number, size and complexity of 
data sets, the maintenance of these data sets now requires a Service-
wide investment that ensures sound data management practices and 
supports the integrity and authoritativeness of the data. The data 
management activities include data acquisition, data library functions 
and data preparation--a professional skill set with industry standards. 
CRS is at a point where we need to add capacity to handle these new, 
increasing, and on-going, critical business functions that support the 
research efforts being performed by top analytic staff. Our fiscal 2004 
proposal will enhance our overall research by establishing specific 
capacity to procure, create, maintain and manipulate large data sets 
upon which CRS analysts rely. The proposal includes contract staff for 
the technical data upkeep of these data sets and one new permanent 
librarian to ensure business continuity and integrity of the data 
content. The additional staff, with specialized data skills, will 
implement industry-standard practices for data management uniformly 
throughout the Service. This new capacity will assure: (1) 
authoritativeness and timeliness of the data through regularly 
scheduled, and often frequent, data refreshment activities; (2) rapid 
access to the data through use of industry-standard data base 
structure, cataloging, and maintenance activities; and (3) consistent 
use and interpretation of the content through standard cataloging and 
data manipulation activities. To establish a new capacity and a formal 
structure for data base management activities, I am requesting $0.759 
million.

   INVESTING IN THE FUTURE: INCENTIVES THAT ENCOURAGE STAFF RETENTION

    The last, albeit no less important, focus of our fiscal 2004 budget 
request addresses updating management tools that meet the work needs 
and expectations of a new generation. We are making substantial process 
in hiring new staff and meeting our FTE targets. With Congress' help 
over the past several years, CRS has made significant staffing 
investments through our multi-year succession initiative and new 
staffing approvals for experts in information technology, combating 
terrorism, and multiple policy aspects of or related to the aging of 
the American population. We have integrated the concepts of succession 
and transition staffing into our formal strategic and annual program 
planning efforts and I want to assure you that I continue to adjust 
existing staff and resources to align with the Congress' legislative 
needs. We are asking Congress' assistance to help us to enhance the 
productivity, efficiency, and attractiveness of CRS as both a first 
choice research service-provider to the Congress and as a first choice 
work-place to a new generation of workers who are electing public 
service as a career. To maximize fully our research capacity and 
talent, we must provide the requisite ``work tools'' that staff need to 
produce the highest analytic quality product for the Congress, and we 
must do our best to retain a highly skilled, well-trained, and 
motivated workforce.
    In terms of retaining the talent drawn to CRS, I am requesting 
funding to initiate a Loan Forgiveness Pilot Program. Retention is a 
top priority for CRS because the Service will need a large number of 
stable, experienced staff to replace those who will be retiring in the 
next few years. CRS has already invested considerable money and effort 
to acquire and develop its current work force to prepare for the 
upcoming retirements. Expanding this investment plan to retain a high 
quality staff makes good business sense and ensures our ability to 
maintain our capacity to serve the Congress as retirements of senior 
staff occur. This program will allow CRS to initiate a pilot program 
that provides for the repayment of student loans. Assisting staff in 
repaying student loans allows us to use this benefit selectively to 
ensure continuity of service over the next years. During the one-year 
pilot, CRS would determine eligibility, against a set of pre-determined 
criteria, for no more than 70 percent of analysts and computer 
specialists hired over the past three years, plus 20 incumbents in 
selected at-risk positions whose loss would seriously impair CRS' 
ability to achieve its strategic goals and objectives.
    We are also seeking a modest increase to our travel, training, and 
awards budget allocations--again as retention incentives. CRS currently 
has approximately half the training funds per employee when compared to 
Executive Branch agencies. An attendant benefit of this modest 
investment is to provide new staff with continuing training experiences 
that foster their ability to assume quickly the responsibilities of the 
veteran staff they are replacing. Members of this bright new generation 
seek out organizations that are willing to offer opportunities for 
continued training and to provide learning experiences that foster 
professional growth, development, and rapid integration into the 
business content and culture. Further, travel and training 
opportunities are vital to the veteran research staff to keep them 
abreast of often changing research approaches, information, and 
research results. These off-site experiences keep them networked into 
policy research communities and enrich their analysis through exposure 
to new ideas, techniques, and information research tools. To establish 
incentives to encourage staff retention, I am requesting $0.535 
million.

             STATUS OF FISCAL 2003 NEW CAPACITY INITIATIVE

    I want to thank you once again for providing CRS with the half-year 
funding in fiscal 2003 to acquire 12 additional research staff to 
address terrorism, homeland security, and an aging U.S. population. We 
expect to have 11 of these staff selected by the end of this fiscal 
year, with the last one to be hired by the end of the calendar year. 
They bring capacities such as biotechnology, epidemiology, physics, 
engineering, gerontology, and transportation safety. Given the current 
world situation, the addition of this new expertise will be invaluable 
to the Congress with the work CRS undertakes to support your 
deliberations.

                               CONCLUSION

    In closing, Mr. Chairman, I appreciate the opportunity to appear 
before you and your colleagues today. CRS is the only source of public 
policy information and research analysis focused solely on the 
Legislative Branch. We take seriously our mission to contribute 
substantively to the overall knowledge base of the Congress by 
providing comprehensive and reliable analysis, research, and 
information services that are responsive, confidential, objective, 
authoritative, and timely. As a shared staff resource for the entire 
Congress, CRS is a cost-effective means of enhancing the Legislative 
Branch's capacity for meeting its constitutional responsibilities 
during this time of continued challenge.
    Once again, CRS continues to adjust existing resources to align 
with the Congress' needs. Our fiscal 2004 request reflects new measures 
and capacities that cannot be drawn from existing resources. I hope you 
find that we are meeting our mission, and that we are doing so in a way 
that warrants your continued trust and support.

                 RUSSIAN LEADERSHIP PROGRAM--OPEN WORLD

    Senator Stevens. Have you called attention to the letter 
you filed about the Open World Program?
    Dr. Billington. No, but I am happy to----
    Senator Stevens. I just want to call to the attention of 
the members that this is a program created by a bill I 
introduced that was Dr. Billington's idea, a very successful 
one. And I say that advisedly. Dr. Billington and I will go 
over and have a celebration in Russia concerning this program 
over the weekend. And I look forward to that. And maybe you 
will help me get out of here.
    Senator Campbell. I think it works the other way around, 
Senator. You have to help me get out of here.

                             POLICE MERGER

    Let me proceed with a few questions myself. We talked at 
length about the Library Police merging with the Capitol 
Police. I am particularly interested in that, I guess maybe 
because I was a deputy sheriff years ago. I had an opportunity 
to talk to Speaker Hastert a couple days ago, because I 
understood that he was not supporting that merger.
    He said he did not see the need for merging them and having 
all the training go to the Library of Congress Police that 
would be simply checking books in and out. So I think there has 
been a disconnect on information somewhere. Would you explain 
to the committee which people are going to merge that work for 
the Library of Congress, which would actually need police 
training, which will not merge and do not need training? 
Because I want to pass that on to him.
    Dr. Billington. Yes. I think I will defer----
    Senator Campbell. General Scott.
    General Scott. Yes, sir.
    Mr. Chairman and members of the committee, our Library of 
Congress Police consists of 131 police officers. These police 
officers are empowered with the full force of the law on the 
premises of the Library of Congress. Their primary 
responsibilities are to man the entrance and exit points in the 
Library of Congress.
    In that context, they differ, their duties differ, from 
other police on Capitol Hill, in that not only are they 
concerned with what comes in the building, but they are very 
concerned about what goes out of the building. They conduct 
exit inspections, looking particularly for library properties, 
such as manuscripts, books, records, all that make up our 
collections.
    Of that number, 131 police, all of them have to have 
training as police officers in order to maintain their 
credibility and their status. Of that number, about 70 percent 
man the entrances and exits. Then there is another percentage 
that operates the police command center. But, that is basically 
what our police do that is different than what the other police 
officers do.
    Senator Campbell. I see. I understand that Speaker Hastert 
does not support that 3-year effective date that I understand 
is now pending in the supplemental conference. So we need to do 
some work with him apparently.

                    LIBRARY OF CONGRESS POLICE FORCE

    Let me go on with some more police questions that are of 
interest to me, too. The Library is requesting 51 additional 
officers in the fiscal year 2004 budgets. Are they needed now 
at this state, or is there any particular deadline by which you 
think it is going to be imperative that they are online?
    General Scott. Yes, sir. We are requesting 51 police 
officers in this particular fiscal year 2004 budget. These 
officers were identified as part of the Library's coordination 
with the Capitol Police back in 1999. At that time, we were all 
looking at our security requirements to ensure that, one, we 
had all of our positions currently identified and those that we 
expected to bring online in 2004.
    We submitted our request for 51 new officers because we 
have new posts that we have to man. We have not coordinated the 
hiring of these new officers with the Capitol Police. We are 
not resisting doing that. As a matter of fact, we look forward 
to doing that, because, where we can, we attempt to meet the 
hiring standards of the Capitol Police.

                         POLICE STAFFING STUDY

    Senator Campbell. Is that what you call a posting study?
    General Scott. Posting study?
    Senator Campbell. Yes. I am not sure what that term means. 
Do you recognize that term?
    General Scott. I do not recognize it, but I will ask my 
director of security, if you do not mind.
    Senator Campbell. Yes. Please identify yourself for the 
record.
    Mr. Lopez. Kenneth Lopez, Director of Security, Library of 
Congress. And the question was, sir?
    Senator Campbell. What is a posting study?
    Mr. Lopez. A posting study is essentially what we do--we 
call it a staffing study. It is where you look at your posts, 
and you determine what your minimum staffing level is for that 
particular post, depending on the function of the post and the 
time of the day.
    Senator Campbell. I see.
    Mr. Lopez. And that is essentially what we do, too. The 
term is different than what we use, but it is the same 
principle.
    Senator Campbell. I see. Well, any additional officers that 
you bring on, they will not negatively impact that impending 
time frame for the merger, will they?
    Mr. Lopez. I do not know what the time frame is that has 
been identified.
    Senator Campbell. Is it 3 years? A minimum of 3 years, yes.
    Mr. Lopez. It would not negatively impact us, if we were 
able to hire the people. Because we are asking for approval to 
hire these new police officers in fiscal year 2004, and were 
able to bring them onboard, then it would not leave any 
weaknesses in our perimeter.

                       DIGITAL FUTURE INITIATIVE

    Senator Campbell. Let me go back to you, Dr. Billington. 
This might not be in your mission but, the rebuilding of Iraq 
is on everybody's minds now. You told me that you will not be 
taking on any new functions. Is there anything that the Library 
of Congress does for new and emerging democracies? For example, 
Iraq does not obviously have libraries that experience a kind 
of total freedom of expression that we have in this country. Is 
there any connection at all with the Library of Congress and 
emerging or rebuilding or new democracies?
    Dr. Billington. Well, yes. There is quite an historic 
connection to that part of the world. We have six overseas 
offices. It is not quite formally our responsibility, but since 
these offices are in the region for instance, we have offices 
in Islamabad, Cairo, New Delhi, Jakarta, Nairobi, and Rio de 
Janeiro--there may be a role for us to play.
    After the first Gulf War, for instance, a good deal of the 
reconstruction of the National Library of Kuwait was from our 
duplicates in the Cairo office. And we would certainly want to 
be helpful with whatever we have in Cairo, Islamabad, and New 
Delhi.
    I mentioned the example of the Law Library replenishing the 
basic law codes of Afghanistan. This is very frequently the 
case. As far as the countries of the Middle East are concerned, 
our overseas offices--where we do the procuring, not only for 
the Library of Congress, but for other research libraries in 
America that cover the Middle East--may be useful in helping 
Iraqi Libraries. I note that we are in fact the largest Arabic 
language library in the world. We can, and we want to be, 
helpful in any way that we can.
    In addition, we are exploring with our online services ways 
to connect to the Middle East. We are going international with 
a project called Global Gateways; one of our leading Arabic 
curators is in Cairo at the moment, exploring a joint project 
with the National Library of Egypt, which is encouraging.

                          EMERGING DEMOCRACIES

    Finally, in the former Communist countries, at the 
direction of the Congress, we sent over teams, largely from the 
Congressional Research Service, to explore the possibility of, 
where they were establishing new parliaments, to advise them 
how they can establish a nonpartisan research base.
    Senator Campbell. Is that under the provision that Senator 
Stevens had talked about?
    Dr. Billington. No. That is an earlier program than the one 
that Senator Stevens mentioned, Open World, which is a new and 
even larger initiative which the Library launched in 1999 with 
Russia. The former effort was aimed at building a kind of 
miniature Congressional Research Service for Eastern European 
nations. One of the things people do not remember is when 
people have not had freedom, and they set up a legislature, if 
they do not have any information, they do not have any 
knowledge. Democracy has to be knowledge based. I mean, it is 
one of the great lessons of the American experience.
    And so--and after the war, for instance, in Japan and 
Korea, they set up diet libraries. They had not had them 
before, but it was an imitation of the Congress' initiative in 
Japan and South Korea. So this has also been done for all of 
the countries of the former Soviet empire.
    Now more recently, the very visionary legislation which 
Senator Stevens championed, resulted in the emergence of what 
is now called Open World. Congress recently changed the name 
from the Russian Leadership Program. Open World has been 
expanded this year. Both Houses have approved the idea of 
exploring two or three new countries for pilot programs. And we 
are now analyzing where they are most needed. Talking with the 
State Department and with others, we have narrowed the list 
down to five.
    And two of the five being considered, for instance, are the 
former Islamic republics of Kyrgyzstan and Uzbekistan, both of 
which have American bases in them and have been very supportive 
to the United States, both of the war on terrorism and more 
recently with Enduring Freedom in Iraq. So--as well as looking 
into the Ukraine, Lithuania, and other----
    Senator Campbell. Is Belarus a candidate for that?
    Dr. Billington. Yes, Belarus is one of the five being 
considered--Belarus, Lithuania, Ukraine, Uzbekistan and 
Kyrgyzstan. And since Congress has changed the name to Open 
World, we now have a mandate to expand beyond Russia. I know 
CRS has had people from Mexico saying they would like to 
explore the possibility at various times of looking into this.
    When Nigeria moved in a democratic direction, we had a 
delegation from Nigeria that came into my office and was very 
interested in how CRS functions. But, of course, they are 
thinking in more modest terms.
    I think there is a great deal the Library can do and has 
done, both in terms of restocking and helping their libraries 
develop and also in terms of the Internet, where we have this 
big international presence, but also in terms of possibly 
helping them support their legislatures.
    In many of these emerging democracies, the executive branch 
has engulfed all the other branches of Government. I might just 
say that the experience in the last year with the Russian 
Leadership, the Open World Program, has been particularly good 
because we have invited judges over, to help develop an 
independent judiciary. We have had 300 or so judges over, and 
many of them have established sister court relationships with 
American courts. And it has been a very stimulating thing.
    That program, the Russian Leadership Program, which is now 
being modeled out for possible other areas, has the great 
virtue of bringing people to see how the American system works. 
It is not travel. They stay in one community. And they have 
come from all 89 regions of Russia and stayed in all 50 States. 
Our participants reflect more than 50 different ethnic groups 
participating from Russia. We forget that Russia is a big, 
multi-ethnic society, as are we.
    So it has been very successful--more than 40 percent of 
these have been women, which is totally new. And, of course, as 
you look around the world, that is another area ripe for more 
full democratic development in many emerging democracies. So I 
think exposure to the American system, through Open World which 
is modeled on the 1.5 percent of the Marshall Plan that was 
designated for training young Germans after the war, is 
successful because it brings young Russian leaders over here to 
see for themselves how America works. They see things that we 
take for granted.
    And so I think there are a number of ways in which the 
Library, for one reason or another, has gotten into this kind 
of activity and we would want to be helpful at the Congress' 
instruction in terms of where the legislative branch sees its 
priorities. All I would stress is that for a new democracy, a 
functioning legislature is essential. One of the progressive 
things that has happened in Russia is they moved from ruling by 
presidential decree, which is basically what President 
Yeltsin--for all his other good qualities--was doing in the 
last years--to getting through laws that are stamped by a 
legislature which broadly represents the whole country. Even if 
the legislature is weak and even if maybe there are other 
things wrong with it, it is still a great step forward and one 
of the more decisive steps in making sure you do not revert to 
kind of absolute autocratic rule.
    Senator Campbell. Oh, I think the effort we have put 
forward as a nation to help any of the emerging democracies is 
really important. The last few years, I have been the Chairman 
of the Helsinki Commission.
    And speaking of Belarus, I have met five times with a young 
legislator of Belarus, three times in international meetings 
and twice he came here. Interesting enough, every time after I 
met with him, he got put in jail, which does not speak very 
well to my prestige in Belarus, I guess. But he told me that 
two of his colleagues, who were taken out of the parliament, 
were never heard of again. Two more that he served with are 
still in prison. So they have a real adversarial relationship 
with the president of Belarus.
    But any kind of information we can get in to their hands 
that would help promote democracy are probably really well 
received by the people.
    Dr. Billington. We have a classic problem in choosing--take 
Belarus and Lithuania. One is quite a repressive society, as 
you know, Belarus. The other is a very open, democratic 
society, even going into NATO and so forth. And you want to 
reward the good guys, but you also want to help the people who 
are having difficulty.
    Exactly the same juxtaposition between Uzbekistan and 
Kyrgyzstan. Kyrgyzstan is an amazingly progressive, functioning 
democracy in very difficult circumstances. Uzbekistan is much 
more authoritarian. So how do you judge which one to invest 
your small pilot efforts in? There is an argument can be made 
for both, but it is not easy to decide.

                    SECURITY--CAPITOL VISITOR CENTER

    Senator Campbell. Let me do this in rounds, so that Senator 
Bennett can participate in this, too.
    Senator, if you would like to ask a few questions?
    Senator Bennett. Well, thank you, Mr. Chairman. I do not 
have any specific questions.
    I am glad you are pursuing the Russian project, because 
that is one that is near and dear to Senator Stevens' heart. 
And during my stewardship, we kept a warm blanket around to 
keep it going. And I am glad to see that it still receives the 
support that I think it deserves.
    The only question I would have, going back to the issue of 
the police merger, I am assuming, Dr. Billington, General 
Scott, that as the visitors center progresses, you are paying 
attention to the integration between the Library and the 
Capitol that will occur as a result of the visitors center and 
the tunnel. I do not know if you have any feel for how many 
visitors to the Library will come through the tunnel or if you 
are planning to steer all of your visitors through the visitors 
center, as a security measure.
    Because from a terrorist point of view, the Capitol campus 
is the number one target in the world. And while the Capitol is 
the symbol that the terrorists want to take down on television, 
the Library of Congress, particularly the Jefferson Building, 
is close enough that they would take that, if they could not 
get into the Capitol. So--well, you understand all this. We 
have had this conversation.
    But have you looked into the visitors center, or are you 
making plans for the impact on the visitors center? And I would 
be interested in knowing if you are planning to redirect 
traffic yourself to the Library through the visitors center or 
if you are going to keep separate entrances open.
    Dr. Billington. I would just say I think this is going to 
greatly increase the security and the efficiency and also the 
convenience to people who want to see the exhibits and see the 
beauty of the great hall and so forth, because very often they 
have to wait out in the snow or in the cold in rather long 
lines. The efficiency of having one major entry point for 
visitors is very good.
    We also hope that the Capitol Visitor Center will be able 
to dramatize not so much something about the Library of 
Congress, but something about the Congress that is 
insufficiently appreciated and understood, namely that this 
legislature has preserved the mint record of private creativity 
in the United States through the copyright deposit system.
    This is a unique thing. No legislature has ever done this 
in any other part of the world. We have the largest performing 
arts library in the world, music and movies and all of this. To 
demonstrate this, not as a Library of Congress collection, but 
as a work of preservation of the legislative branch of 
Government, will be a great thing.
    So we anticipate a great increase in visitors, but at the 
same time a commensurate increase in security protection by 
having this main entry point to the whole complex and relating 
it. I do not know if General Scott has further comments.
    General Scott. Well, I would just add, Senator, that we 
certainly will comply and cooperate, fully cooperate, with 
whatever standards there needs to be in order to make sure that 
we do not have a weak link at any point in the entry or exit of 
this Capitol complex. I am not aware that we have come to any 
final conclusion as to where visitors are going to be routed 
yet. I think that is yet to be planned and coordinated.
    But I just want to share with the committee that Dr. 
Billington has always stressed that we will cooperate fully 
with securing the Capitol complex.
    Mr. Lopez. I would like to say, sir, that we are meeting on 
an ongoing basis with the Capitol Police and the Architect of 
the Capitol to facilitate passage between the two entities, 
even if there were separate entrances, to use the connecting 
tunnel for our exit inspection and also utilizing the Capitol's 
entrance into the visitors center as essentially our entrance 
into the Library, if they came through the visitor center 
tunnel. But we have not reached the point about talking about 
that as the only entrance until a decision is made.
    Senator Bennett. Thank you, Mr. Chairman.

                        AUTOMATED HIRING SYSTEM

    Senator Campbell. In 2001, the Library installed a new 
automated hiring system that was required by a court order. 
What is the status of that system? And will you be able to hire 
up to the level that Congress authorized for fiscal year 2003?
    Dr. Billington. Well, we have increased both the quantity 
and the speed of our hiring very dramatically after some 
initial problems with adjustment to it. But General Scott can 
speak to the details, because he has been watching this very 
closely.
    General Scott. Thank you, Dr. Billington.
    Senator Campbell. Yes, please.
    General Scott. Yes, sir, Mr. Chairman. Yes, we have made 
substantial progress in using the automated hiring system to 
fill our hiring needs. This past fiscal year, we hired 300 good 
quality applicants using the system. Now that compares 
favorably, very favorably, with only 190 hires in the 
administrative and professional categories of a year ago.
    We continue to look at that system and develop a fully 
functioning merit selection system, so that we have a pool of 
applicants that are not only highly qualified, but a pool that 
gives us diversity and everything else that you would want to 
have in a modern system.
    So yes, in summary, we are not satisfied with where we are, 
but the system has demonstrated that it is meeting our hiring 
needs.
    Senator Campbell. Thank you.
    Dr. Billington. We used to have an average of 18 applicants 
for a position. We now have an average of 94. So getting it out 
electronically gives a much richer pool. And that is a real 
plus. That gives you added possibilities for diversity in every 
sense of the word and for surveying a very wide panel. So I 
think it does reach out much more effectively, as well.

 NATIONAL DIGITAL INFORMATION INFRASTRUCTURE AND PRESERVATION PROGRAM 
                                [NDIIPP]

    Senator Campbell. Let me ask you something about the 
National Digital Information Infrastructure and Preservation 
Program. You recently received the committee's approval to 
proceed with spending $25 million of the $100 million that was 
appropriated for that program. What is the status of that 
effort now?
    Dr. Billington. Well, the National Digital Information 
Infrastructure and Preservation Program is a three-stage 
process. The appropriation has already been made, just a few 
pennies under $100 million, $5 million of which was released to 
start this process. We have had a couple hundred experts 
involved. We had a whole series of strategy meetings with 
convened groups. We had a small group of Government agencies 
that we had to specially consult with under the legislation. 
And we have devised this--we submitted this plan, which was 
approved by five different Congressional committees. There is a 
thicker appendix backup to the plan as well.
    And now we are going on to the next stage, which was 
designed to be a release of another $20 million; and we asked 
to have included in that release the first $15 million of the 
$75 million which needs to be matched. So we are not starting 
on the match right away, but we will hope to be planning for 
that this summer and begin to see if we can get either in-kind 
or cash matching.
    Now what has happened is that we have defined specific 
things that have to be accomplished in the next phase. We have 
developed a kind of base technical architecture for this 
network. And we have worked with a whole series of partners 
very effectively, in the information technology industry, 
libraries and archives, the producers of intellectual property, 
the consumers of the material, all the different interest 
groups.
    So we have sort of a basic agreement that we will now 
further develop and refine the architecture. We will begin to 
form partnerships for a series of pilot projects. The aim of 
this, of course, is to acquire, find ways of acquiring and 
preserving and getting rights-protected access to the amazing 
amount of materials that is being produced on the Internet that 
does not survive, and which very often is born digital, and 
only available in digital forms. The average life of a website 
is only about 44 days.
    In addition to beginning the partnerships and perfecting 
the technical architecture, the National Science Foundation and 
other collaborating Government agencies also are going to be 
doing research. This is a tremendous conceptual problem as 
well.
    We will come back to the committees once again with the 
results of this and hope to have the release of the remaining 
$60 million. This is all money that is already appropriated. 
But we are moving ahead on the schedule that was established 
with what is a very complex problem and with the end result of 
which is going to be a distributed network of people who will 
work together to preserve what is of lasting importance on the 
Internet for future generations. The technical architecture 
will be based on an agreed set of protocols, support metadata, 
so that the content is preserved and secure. We will probably 
be having a lot of conversation with the Congress about 
possible legislation.
    But this has been, I think, a very creative thing. It is 
moving ahead very well. We have had wonderful cooperation. I 
must say, the private sector has given a lot of help. There is 
the implication that everyone will participate and pitch in 
with something quite new, which is distributed responsibility 
for our public national trust.
    The other thing that is important, is that the Library has 
unique experience. It is one of the reasons that I think they 
all agree that the Library of Congress should play a central 
role in this. We did not put them up to that, but they feel it 
is extremely important. We did set the standards for cataloging 
in the print world, so that all libraries could use it. 
Cataloging is a continuing benefit to the whole library system 
of America with the books and what we call analog artifactual 
containers of knowledge and creativity.
    Now in the new digital world, it is going to be much 
tougher. But we still have the basic responsibility of working 
with the National Institute of Standards and Technology and 
Commerce and other Government agencies, and with the private 
sector, to set standards that will be uniform, even though the 
responsibility for executing it will be a distributive one.

                        VETERANS HISTORY PROJECT

    Senator Campbell. Thank you. You are also requesting 
approximately $1 million for the Veterans History Project, 
which is something I think is really overdue and important. 
That was created to collect taped and written accounts of war 
veterans. I assume that means dead or alive going back 
throughout history. The budget you have requested is about 
double the current year's budget. Have you had any problems in 
trying to implement that program?
    Dr. Billington. I think there are no problems that a little 
more help at the center of it would not mitigate, which is why 
we have made this request. It has been an extraordinary 
response.
    Senator Campbell. How do you start cataloging them? Do you 
go through the National Archives or the Department of Veterans 
Affairs or something to find people to interview?
    Dr. Billington. We have working arrangements with several 
hundred national organizations and local organizations--all 
kinds of partners that we work with. We are archiving the whole 
business. They send in their accounts. We have sent out 100,000 
instruction kits of how to prepare accounts and how to conduct 
the interviews. We work through any local organization that 
wants to partner with us. Forty-two of the 100 Senators have 
set up projects in their own States and have specified people 
that we can work with in their States or in their communities. 
About one-third of the House of Representatives has done that 
in their districts.
    We have got a system whereby it is collected through the 
Archive of American Folk Life, which now has permanent status 
within the Library of Congress. They have some experience with 
the overall history and the recording of accounts, because they 
have recorded, as you probably know, some 10,000 wax disks 
dating back to the 1890s with the Native Americans and 3,000 
long-playing records on which so much of that oral history is 
recorded.
    Staff located in the Folklife Center are the people who are 
archiving these histories. They deal with multiple formats. We 
also accept diaries. Some people have moving testaments of 
letters written during the war.
    Senator Campbell. Do you work with tribes, too?
    Dr. Billington. Yes, sir. We have some groups that we have 
worked with, both in Seattle and in Nebraska, if I remember 
correctly. Of course the famous Navajo Code Talkers have been 
the absolute heroes of our last two national books festivals. 
We are working with a wide variety of groups. We also work 
with--let me make sure I get the name right here.
    General Scott. I can fill you in on that.
    Dr. Billington. General Scott, needless to say has been 
intimately involved in overseeing this project.
    General Scott. Yes, sir.
    Dr. Billington. By the way, it is all wars, not just the 
20th Century, that we are commemorating.
    General Scott. Right. We do have one staff person who is 
dedicated for outreach with various minorities in our country. 
We do have several projects, and including one with a Native 
American tribe that is located in or is associated with the 
Oglala Lakota College on the Pine Ridge Indian Reservation.
    We are also working with the Soaring Eagle Foundation in 
Seattle which also is involved with the Veterans History 
Project. We also are working closely with the National Congress 
of American Indians.
    Our aim here is to not try to do all of the collecting of 
the various stories ourselves, but to have as many partnerships 
all across America as we possibly can. What we found is that in 
certain regions of the country you have very strong veteran 
service organizations. But we have also found that for many of 
those veterans organizations minorities do not usually flock to 
those organizations. That is why we have dedicated one of our 
service members as minority outreach.
    Senator Campbell. I might point out that they do not flock 
to the larger, maybe the larger things, for instance, like the 
VFW. Some of the minority groups might not join the downtown 
VFW. But those VFW groups that are focused just on one ethnic 
background or something like that----
    General Scott. Yes, sir.
    Senator Campbell [continuing]. They do join.
    General Scott. Right.
    Senator Campbell. The largest VFW, for instance, in 
Montana, the largest VFW chapter is the Cheyenne Indian VFW. It 
is larger than any of them, in Billings or any other cities. So 
I guess it depends on how they feel, whether they identify with 
other people that are already in it or something.
    I might mention to you, too, that there is a man, Dr. 
Herman Viola, and he used to be at the National Archives.
    Dr. Billington. Oh, I know him very well.
    Senator Campbell. He has written dozens of books. And he is 
doing one now that I think ought to be really interesting that 
you might tell your staff person about, that deals with Indian 
veterans. You might want to contact Herman, because he is doing 
one now on American Indian veterans going clear back to the 
late 1800s. It is not out yet, but he has a lot of 
documentation that might be interesting.
    General Scott. Yes, sir, we will. We will follow up on 
that.
    Dr. Billington. That is very good. Actually, in the 
percentage of veterans in wars, the minority percentage is 
higher than the general population percentage. So this is a 
very important frontier. It is another reason, frankly, that we 
need a little more help at the center. We are not doing this 
all. We are just getting the instructions out.
    One of the best things about it is the intergenerational 
quality. What is best is the various ways these interviews are 
conducted that involve young people interacting with seniors. 
The most moving is young people who discover things about their 
great uncle they never knew he had experienced. It really is a 
wonderful thing. It was unanimously endorsed by the Congress. 
We got $3 million from the AARP when it started, although we 
got very little initially.
    We do feel now it has reached a stage where more support is 
needed. We have about 75,000 of these accounts. But there are 
19 million veterans; 1,500 die every day--we are racing against 
time. We want to get these stories--many of the veterans have 
never talked about their experiences. I can say, as a 
historian, just looking at some of this stuff--and I have 
conducted a few interviews myself--it is going to change the 
writing of history, because we will now see wars from the 
bottom up, rather than from just the top down.
    Senator Campbell. I think it is a really important program.
    Let me yield to Senator Durbin.

                        USE OF LIBRARY RESOURCES

    Senator Durbin. Thank you, Senator. I apologize for being 
late. We had an emergency meeting of the Illinois and Iowa 
delegations over the future of an arsenal, and I wanted to be 
certain that I made an appearance there.
    But I am glad I could join you here today. Thank you and 
thanks to Dr. Billington and General Scott for what you are 
doing at the Library of Congress.
    I would like to address an issue which is near and dear to 
me that I have discussed with both of these gentlemen as 
recently as yesterday. If you read the latest issue of Atlantic 
Magazine, you may be surprised to learn, that Adolf Hitler was 
not only a megalomaniac, but he was also a bibliophile and 
collected a vast amount of books. When the Allied troops 
liberated Germany, they took that collection and turned it over 
to our friends at the Library of Congress. And across the 
street now is Adolf Hitler's book collection with his 
nameplates in the books.
    Now the reason that that caught my attention was that I 
never dreamed that he was a book collector.
    Dr. Billington. He burned a lot of them.
    Senator Durbin. Yes, he burned a lot. Nor did I know that--
--
    Senator Campbell. He was an art collector, too, of sorts.
    Senator Durbin [continuing]. His collection was across the 
street at the Library of Congress, amid probably other 
collections, but I think it is one of the major ones. We had a 
conversation yesterday. We talked about all of the treasures 
and assets of the Library of Congress that are virtually 
unknown to the rest of the world. I think it is time that we 
stopped hiding this light under a bushel. I think in order to 
let the American people and the world know what we have, we 
have to do a little better job of telling the story.
    I think you do that. And I think websites are going to open 
up a lot of access that just did not exist several years ago. 
But there is another area that strikes me where we have great 
potential. If you visit the National Gallery or any of the 
Smithsonians or any of the museums, major museums, in any city 
in this country, you will find great collections of wonderful 
things and a great gift store that allows you, in leaving with 
that positive feeling about this institution, to take home 
something that caught your eye, a reproduction of a work of art 
or something that you want to treasure yourself and share with 
your family.
    I think we can do more with the Library of Congress in this 
regard. I think there is an opportunity to take some of the 
more outstanding things in the collection of the Library of 
Congress and safely reproduce them in a form that will generate 
revenue for the Library, to be reinvested in its activities and 
also give the American people a better opportunity to 
understand what a great treasure we have in the Library of 
Congress.
    And I might add, Mr. Chairman, this committee is really on 
the front line of this. In the not-too-distant future, maybe 2 
years, we will have a Capitol Visitor Center. Within that 
Capitol Visitor Center, we will find millions of people 
accessing the United States Capitol again under the best 
circumstances, in a secure way, so that there is no doubt about 
their security or the security of the building.

                        RETAIL SALES ACTIVITIES

    Attached to that Capitol Visitor Center will be tunnel 
access to the Library of Congress. So these same hundreds of 
thousands of visitors will have a chance to make a turn in 
their visit to Washington and come over to see the Library of 
Congress, many for the first time. I think that, too, is going 
to be another opportunity for access to the Library and access 
to perhaps some retail operation where they can leave the 
Library with something that means a lot to them.
    I have not even touched on E-commerce, which I think I 
would like to ask you about, if I could. I have talked to some 
people. And they said, for example, if you took some of the 
extraordinarily rare maps in the Library of Congress and 
produce them in limited edition for sale, with the revenue 
coming back to the Library, there would be a lot of people 
interested in it.
    Tell me what you have done so far--we have talked about 
this for a year or two--and what you envision the next step to 
be in this process.
    Dr. Billington. Well, I will just say one word, because 
General Scott has been overseeing this. We have moved, and 
largely in response to your very effective and helpful 
suggestions, and done a test of online marketing. After 9/11, 
we had to close our Madison shop. We now have one in the 
Jefferson. It is small. We will certainly want to look into the 
idea of expanding it, as you suggest.
    But on the question of E-commerce, since we are a huge web 
presence as it is, this is very clearly promising. And the 
experiments that General Scott supervised this past year have 
shown real promise with that. But I will let him tell the 
story, because he has been doing a good job for it, moving us 
into a more aggressive business posture, as you have suggested.
    General Scott. Yes, sir. The first thing we have done is we 
have made some real progress towards making some profits on 
some of the items that we have marketed, particularly on the 
website. During last year, we marketed some of the gift shop 
items through Yahoo. And for a very modest investment, because 
we did not have additional money to really go out and hire 
somebody, we were able to make $73,000, which really came out 
to be about a 24 percent return on the investment.
    With that, we have also come out with a business strategy 
and an implementation plan that we feel confident that if we 
could have some seed money--that is what we have asked for in 
this budget--we could make this a much more profitable 
operation.
    We did talk about a map, putting one of the rare maps up. I 
am pleased to say that Beacher Wiggins, who is our Acting 
Director for Library Services now, has started already to 
research that project. We are going to see where that is going 
to take us. I do think we have put together a plan that 
identifies what we need to do between now and the next couple 
of years. If we can get this seed money, I think we will be 
able to come back and tell you our progress next year.
    Senator Campbell. Is this the plan that the Congress 
directed in the fiscal year 2003 to----
    General Scott. Yes, sir.
    Senator Campbell. And in your request this year, as I 
understand it, you are requesting $715,000, 5 FTEs, and that it 
will be the seed money to----
    General Scott. Yes, sir.
    Senator Campbell [continuing]. Do the infrastructure and 
the marketing and so on?
    General Scott. That is correct, sir. It is just a 1-year 
request that we are asking for.
    Senator Campbell. And you had a 23 percent----
    General Scott. We had a 24 percent return on investment.
    Senator Durbin. I want to just say, Mr. Chairman, I will 
not dwell on it any longer since I came in late, but I think we 
want to take care that we maintain our first responsibilities. 
You have a fiduciary responsibility to the contents of the 
Library of Congress. We all do as part of this effort, and that 
has to be protected.
    We certainly do not want to see commercial exploitation of 
things that are very sensitive and important. We want to take 
care that we pick those items that can be merchandised in a 
tasteful and thoughtful and responsible way. And I trust that 
is exactly what you are going to do.
    There have been some controversies in some agencies of 
government about commercialization. We are not going to get 
close to those. I think there are things that we can share with 
the American people and, with the revenue from that, enhance 
your great institution.
    Thanks, Mr. Chairman.
    Senator Campbell. Let me add, too, though, I mean, some 
things you will market. But I have visited the Library a number 
of times. And I have traveled a lot, like Senator Durbin has. I 
have been to the Roman baths in Rome, for instance, and some of 
the great cathedrals in St. Petersburg. And I have to tell you 
that the mosaics on the floor of the Roman baths and the 
mosaics in the cathedrals of St. Petersburg I do not think are 
any nicer than the ones you have in this building.
    And it would seem to me that part of the marketing ought to 
be to get people to come and see the things that you are not 
going to be able to send them as a souvenir. And, I would 
commend that. In fact, I do all the time. People come into our 
office and ask us, ``We only have half a day. What do you think 
we ought to see around here besides the Capitol?'' I always 
recommend the Library of Congress, specifically because of 
those outstanding mosaics that are on the wall.
    So, from that standpoint, I do not really see that as 
commercialization. That is something they own, as American 
citizens and taxpayers. And it is certainly an educational 
experience for youngsters. And I think a lot could be done with 
that, if you want to increase the tourism over there.

                     ADDITIONAL COMMITTEE QUESTIONS

    Well, I have two or three other questions. What I am going 
to do, since I do have another meeting, however, is submit 
those to you and ask you if you would get back to us to put on 
the record in writing.
    General Scott. Yes, sir.
    Dr. Billington. Yes, sir.
    [The following questions were not asked at the hearing, but 
were submitted to the Library for response subsequent to the 
hearing:]

         Questions Submitted by Senator Ben Nighthorse Campbell

                             POLICE REQUEST

    Question. The Library has approximately 130 police officers, which 
are to be merged with the U.S. Capitol Police over the next few years. 
The Library is requesting an additional 51 officers in its fiscal year 
2004 budget. Why are these officers needed now? Have you asked the 
Capitol Police to undertake a postings study for these additional 
officers? How will you ensure bringing in these officers at this time 
will not negatively impact the impending merger?
    Answer. The Library plans to open or expand ten new police posts in 
fiscal year 2004 in connection with the completion of 1999 supplemental 
appropriations perimeter security construction. Additionally, some of 
the requested FTEs would be used to bring current police posts to the 
minimum staffing level to ensure officer and staff safety. The Capitol 
Police have not been asked to conduct a postings study for the 
additional Library police officers. However, the Library has completed 
a comprehensive post staffing analysis supporting this request. The 
Library does not believe that bringing on the requested new officers 
would negatively impact an impending police merger. These additional 
FTEs would be needed under the current or a merged structure, as the 
requirements remain the same.

                            HIRING PROBLEMS

    Question. In 2001 the Library installed a new automated hiring 
system that was required by Court order. You reported in last year's 
hearing that it was resulting in some significant delays in hiring 
personnel with unqualified people getting through the initial screening 
process. What is the status of this system and will the Library be able 
to hire up to the level the Congress authorized for fiscal year 2003? 
What is the average amount of time required to hire a new person, and 
what accounts for the improvement over last year?
    Answer. After various systems and process improvements, the Library 
is hiring quicker and in higher numbers than ever before. On average, 
fiscal year 2002 selections occurred 110 calendar days after postings 
opened, as compared to 178 calendar days under the previous hiring 
process. The Library achieved this savings largely by reducing 
processing time within Human Resources Services. The Library also made 
300 selections in fiscal year 2002, a notable improvement over the 
previous 190-selection average. The Library is working hard to meet the 
fiscal year 2003 hiring requirements, despite working under eight 
continuing resolutions for almost 6 months of the fiscal year, which 
always impacts hiring.

                          CRS--HIRING PROBLEMS

    Question. Last year Congressional Research Service (CRS) identified 
some areas where it needed to increase its staffing--homeland security 
and terrorism, and aging-related issues. Have you been able to hire-up 
or otherwise fill the need you identified in these areas?
    Answer. Of the twelve new positions approved for fiscal year 2003, 
five positions were posted by March 31, 2003: (1) Public Health & 
Epidemiology--Combating Terrorism; (2) Infrastructure Systems 
Analysis--Combating Terrorism; (3) Science & Technology, Biochemistry--
Combating Terrorism; (4) Economics of Aging--Aging; and (5) Economics 
of Health Care--Aging.
    Another six positions will be posted by early June 2003: (1) 
Islamic and Arabic Affairs--Terrorism; (2) Actuary--Aging; (3) Senior 
Demographer--Aging; (4) Bio-ethical Policy--Aging; (5) Genetics--Aging; 
and (6) Gerontology--Aging.
    The projected on-board dates for the four positions supporting 
Combating Terrorism, that have already been posted, vary from July 
through September. The last Combating Terrorism position, a Librarian, 
will be posted in fiscal year 2004. The projected on-board dates for 
the seven Aging positions begin in August 2003, with the final two 
reporting in October 2003.

                          DIGITAL INITIATIVES

    Question. The Library has a National Digital Library program with 
funding of about $20 million. Through this program the Library has 
digitized many parts of its collection and made them available through 
the Library's web site. In addition, the Library is shepherding a 
multi-agency, government/industry effort called the National Digital 
Information Infrastructure Preservation Program (NDIIPP). How do these 
two programs relate to one another? The Library recently received this 
Committee's approval to proceed with spending $25 million of the $100 
million appropriated for NDIIPP. What is the status of this effort? The 
next step will be securing matching funds from other organizations, 
totaling $75 million. Have you begun this process? Do you envision the 
need for significant additional appropriations in the next few years 
for digital initiatives or to implement the NDIIPP?
    Answer. Through the Library's efforts to build a digital library, 
The National Digital Library (NDL) program, the Library learned how to 
convert analog materials and deliver content electronically. Building 
upon the know-how gained in developing a digital library and handling 
digital materials, the NDIIPP's goal is to develop a national strategy 
for collecting and preserving digital content. The NDIIPP program is a 
special program to develop a national strategy to collect and preserve 
current digital content that only exist in ``born digital'' form. 
NDIIPP is funded by a special appropriation, whereas, the NDL is an 
ongoing part of the Library's budget base.
    The NDIIPP plan was accepted by Congress on December 3, 2002. The 
next phase of the NDIIPP plan has two major components: a network of 
cooperating institutions and partners, and the technical framework, 
communication networks, services, and applications that support the 
cooperating network of partners.
    The plan envisages a three-tiered research and investment program 
which suggests targeted core capacity investments that will be subject 
to matching funds in pilot projects and experiments that will run for 1 
to 5 years, beginning in fiscal year 2003. ``Core capacities'' refer to 
the shared knowledge, expertise skills, and consensus deemed essential 
to support collaborations among partners that comprise the digital 
preservation network.
    The Library does not envision the need for appropriations support 
in the next few years for the NDIIPP beyond the $100 million Congress 
has already appropriated for NDIIPP.
    The Library is in the process of updating its internal digital 
initiative strategy. This includes identifying the need for any 
additional NDL appropriated base funding support for fiscal year 2005 
and beyond.

                            CRS CONTRACTING

    Question. CRS' budget includes a $3 million increase for 
contracts--roughly 40 percent over the current year. Yet according to 
the Inspector General, in many instances CRS' consulting contracts are 
not cost effective and do not comply with regulations. The IG found at 
CRS consistent trends of limited or no competition, insufficient cost 
analysis and inadequate sole source justifications. Why should we 
provide this increase in view of these problems, and have these 
deficiencies been fixed?
    Answer. Per the Library's Inspector General (IG), the information 
driving the question about the CRS contracting may have been taken out 
of context. The majority of the audit conditions and recommendations 
were focused on the Library's Contract Services, not the CRS. Two of 
the three contracting issues addressed in the Senate question, 
competition and inadequate sole source justifications apply exclusively 
to the Library's Contract Services functions. The remaining issue, 
which relates to insufficient cost analysis, pertains to and has been 
partially corrected by CRS through training of the CRS contract 
specialist.
    The IG recognizes the absence of viable alternatives or competitors 
with regard to the highly specialized, interim research or analytic 
capacity for which CRS typically contracts under its statutory, non-
competitive authority. The CRS non-competitive research capacity 
contracts are generally short-term and low dollar value contracts; 
therefore, performing extensive cost analysis on every individual 
contract would create an administrative burden and cost that could 
potentially exceed any savings. However, in following the spirit of the 
recommendation, CRS has consulted with the IG regarding the pricing of 
two unusual contracts--one contract was with a medical research 
corporation that included a sizable overhead fee, and the other 
contract was with an individual who cited a previously approved rate 
determination by an IG from another federal agency. The IG supported 
the CRS pricing concerns and we were able to achieve some savings on 
both contracts as a result.
    CRS has agreed to include cost reviews--where appropriate--in their 
updated contract policy guidelines, which will satisfy the audit 
recommendation.
    The CRS budget request included a $2.7 million increase in 
contracts; however, $1 million of that request was subsequently 
approved under the fiscal year 2003 supplemental. Of the $1.7 million 
remaining, nearly all of it is for contract staff who will support the 
CRS technology infrastructure for research and the creation and 
dissemination of CRS products. CRS will acquire these services through 
one of the existing General Service Administration (GSA) pre-competed 
contract vehicles--most likely Federal Systems Integration and 
Management Center (FEDSIM). The remaining $18,000 is for training 
contracts, which will be acquired competitively.

                     REMOTE ACCESS TO CRS MATERIAL

    Question. What is CRS doing to enable members of Congress and staff 
to access CRS from remote locations (e.g. traveling abroad)? What are 
the costs involved with making this possible?
    Answer. The Senate Sergeant-At-Arms provides members and staff with 
the means for connecting remotely to the Senate network. Once connected 
to that network, members and staff have secure access to the entire CRS 
Web site and to CRS staff through the Senate email system. Over the 
last several years, CRS has put significant effort into ensuring that 
its Web site offers the full range of CRS services, including access to 
all CRS products arranged by issue area or by user search-term, and the 
names, phone numbers, and email addresses of CRS experts in specific 
issue areas. From the CRS Web site, members and staff can also place 
requests, register for CRS seminars, and access CRS reference services.

             BOOKS FOR THE BLIND AND PHYSICALLY HANDICAPPED

    Question. Last year the National Library Service for the Blind and 
Physically Handicapped was planning to convert to digital format in 
lieu of cassette tape, the books and materials it provides to the blind 
community. With an inventory of more than 700,000 cassette tape 
machines, this will be very expensive. How much will you need and when 
will you request additional funds?
    Answer. The National Library Service for the Blind and Physically 
Handicapped projects that a total of approximately $75 million will be 
required to fund the transition from analog cassette to a digital 
format over a period of at least 5 years. An initial request will be 
submitted in fiscal year 2005.

                          SUBCOMMITTEE RECESS

    Senator Campbell. With that, thank you so much for this 
material you brought me. I certainly do appreciate it. And I 
will read that 100-year anniversary of Harley-Davidson with 
great interest.
    This subcommittee is recessed.
    [Whereupon, at 2:23 p.m., Thursday, April 10, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
